<html>
<title> - FEDERAL PROTECTIVE SERVICE: WOULD FEDERALIZATION OF GUARDS IMPROVE SECURITY AT CRITICAL FACILITIES?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   FEDERAL PROTECTIVE SERVICE: WOULD 
                   FEDERALIZATION OF GUARDS IMPROVE 
                    SECURITY AT CRITICAL FACILITIES?

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

                           Serial No. 111-61

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
61-743                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Laura Richardson, a Representative in Congress From 
  the State of Californina:
  Prepared Statement.............................................     3

                               WITNESSES
                                Panel I

Mr. Gary W. Schenkel, Director, Federal Protective Service, 
  National Protection and Programs Directorate, Department of 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
Mr. Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Office:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Clark Kent Ervin, Director, Homeland Security Program, The 
  Aspen Institute:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Panel II

Mr. David L. Wright, President, National FPS Union:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47
Mr. Stephen D. Amitay, Federal Legislative Counsel, National 
  Association of Security Companies:
  Oral Statement.................................................    51
  Prepared Statement.............................................    54

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  The National Treasury Employees Union, Statement of............    43

                                Appendix

Questions From Chairman Bennie G. Thompson of Mississippi for 
  Gary W. Schenkel...............................................    63
Questions From Honorable Charles W. Dent of Pennsylvania for Gary 
  W. Schenkel....................................................    65
Question From Honorable Charles W. Dent of Pennsylvania for Mark 
  L. Goldstein...................................................    65
Questions From Honorable Charles W. Dent of Pennsylvania for 
  Clark Kent Ervin...............................................    66
Questions From Honorable Charles W. Dent of Pennsylvania for 
  David L. Wright................................................    66
Questions From Honorable Charles W. Dent of Pennsylvania for 
  Stephen D. Amitay..............................................    67


  FEDERAL PROTECTIVE SERVICE: WOULD FEDERALIZATION OF GUARDS IMPROVE 
                    SECURITY AT CRITICAL FACILITIES?

                              ----------                              


                       Wednesday, April 14, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Jackson Lee, 
Cuellar, Richardson, Kirkpatrick, Pascrell, Green, Himes, King, 
Smith, Lungren, Dent, Cao, and Austria.
    Chairman Thompson [presiding]. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
receive testimony on ``Federal Protective Service: Would 
Federalization of Guards Improve Security at Critical 
Facilities?''
    Since 2007, this committee has held three hearings on the 
Federal Protective Service. This small agency is a prime 
example of the kind of changes this Nation has undergone in the 
last 10 years. Once primarily concerned about protecting 
Federal buildings from theft, vandalism, and other minor 
crimes, the mission of FPS changed significantly after 
September 11.
    This small agency of 1,200 employees must protect Federal 
employees stationed in 9,000 Federal buildings and countless 
members of the public seeking information or assistance. Their 
vigilance must match our vulnerability. They carry out this 
task every day, but they cannot do it alone.
    These 1,200 FPS employees are supplemented by 15,000 
security guards who are paid by private firms under contract 
with the Government. Every year, the costs of these contracts 
increase by 20 percent. For most people, the contract guards 
are the face of the Federal Protective Service. Unfortunately, 
the face has some disturbing features.
    In 3 years, this committee's oversight has uncovered FPS' 
failure to pay its contractors; security firms hired by FPS who 
fail to pay their guards; FPS' failure to require current and 
appropriate credentials for guards; FPS' and the security 
companies' failure to properly train guards; and FPS' inability 
to mandate that Federal tenants comply with security upgrades. 
These problems have led to security vulnerabilities that 
allowed GAO testers to enter Federal buildings guarded by 
contract guards with knives and guns.
    To be fair, FPS has tried to respond to each problem 
uncovered, and each challenge revealed by the GAO, inspector 
general, or this committee. DHS has put forward a transition 
plan to help resolve some of FPS' problem. But this cascade of 
issues pushes us to ask whether additional piecemeal patches 
will be sufficient. The solution to these problems will require 
resources, planning, and commitment.
    In July 2009, the Office of Management and Budget directed 
each agency to consider the use of Federal employees in 
positions held by contractors. The Homeland Security Department 
identified about 3,200 contractor jobs that will be converted 
to Federal positions.
    Despite numerous reports of security vulnerabilities, and 
the likelihood that Federal facilities may present attractive 
targets, none of the 15,000 positions held by FPS contract 
guards were considered for in-sourcing. Increased threats on 
Federal employees and recent attacks on Federal buildings 
demonstrate that safety in Federal facilities can no longer be 
taken for granted.
    The Chair now yields to the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    Mr. King. Thank you very much, Mr. Chairman.
    I welcome our witnesses, and I look forward to the hearing, 
because this hearing will provide another opportunity to 
discuss the challenges facing the Federal Protective Service, 
and various ways to address and to improve the security at 
Federal facilities.
    The focus of the hearing is whether or not to Federalize 
the contract-guard force. Arguments have been made on both 
sides--persuasive arguments on both sides. I look forward to 
hearing from the witnesses to get their views on the issue, 
especially regarding the costs associated with the proposal, 
and what empirical studies, if any, have been conducted in this 
area.
    Now, the Federal Protective Service is a vital component 
within the Department of Homeland Security, and has a critical 
mission. The constant threat of terrorism, along with the 
recent violent acts at Federal buildings underscores the need 
to improve the security of these facilities, and the safety of 
the employees that work in them. You know, as we know, the GAO 
has identified a number of security lapses within the Federal 
Protective Service. I look forward to hearing from the 
witnesses today about the agency's ability to protect the 
Federal buildings, to effectively oversee the contract guards, 
and to provide sufficient training to the guards; and to see 
what steps can be taken--if it involves Federalization--to 
address the security lapses.
    I know that one of our colleagues, Congressman Dent, from 
Pennsylvania, is drafting legislation to address deficiencies 
identified by the GAO. I look forward to working with 
Congressman Dent on this bill.
    Also, I would like to bring up the issue of the possible 9/
11 Guantanamo trials.
    Mr. Schenkel, when you testified at a previous hearing, you 
said that the FPS, ``lacked the sufficient resources to secure 
the Federal buildings that will be related to the trials in 
lower Manhattan''--that there were not sufficient Federal 
Protective Service employees for that trial. Yet, despite that 
testimony, President Obama's fiscal 2011 budget for DHS 
requested no additional resources for the Federal Protective 
Service.
    Now, I am opposed to this administration trying the 
terrorists in civilian courts, certainly in New York. Having 
said that, if the trial should go forward, it is absolutely 
essential we have the security that is needed. I urge this 
administration to reconsider funding, as far as Federal 
Protective Service--as far as what needs to be done. Because, 
right now, it just does not appear either the State, local, or 
the Federal level has enough security in lower Manhattan for 
these trials.
    So, with that--I look forward to your testimony.
    Mr. Chairman, I thank you for holding the hearing. I yield 
back the balance of my time.
    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Hon. Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                             April 14, 2010
    Mr. Chairman, thank you for convening this very important hearing 
today examining the continuing challenges faced by the Federal 
Protective Service. I appreciate your commitment to this vital issue. I 
would also like to thank our witnesses for being here today.
    The committee last examined the challenges facing the Federal 
Protective Services back in November. The Federal Protective Service 
(FPS) provides law enforcement and security services for almost 9,000 
Federal facilities, 2 million people working and visiting in these 
facilities, and countless millions in Federal assets. The sheer scope 
of this kind of service means that we must do everything we can to 
ensure that the FPS has the resources and organizational structure in 
place to effectively do their job and keep our Federal buildings and 
employees safe in the face of any threats to their security.
    As the representative of the 37th Congressional District in 
California, which is a target-rich area for terrorists due to its close 
proximity to the Ports of Los Angeles and Long Beach, I have a 
particular interest in ensuring that this agency has the resources and 
structure in place to not only adequately handle its duties but to 
excel. Therefore, it is of particular import to me that the Federal 
Protective Services is doing the best job it possibly can.
    I am disappointed that Government audits, since 2006, have 
repeatedly exposed oversight and performance problems in the contract 
guard program. FPS is relying on almost entirely on contract guards, 
about 15,000 in total, to provide security at Federal facilities. 
Unfortunately, the findings of the Government Accountability Office 
(GAO) indicate many serious problems with FPS oversight of these 
guards.
    For example, just recently a man flashed fake credentials and was 
permitted to reach the outer office of Health and Human Services 
Secretary Kathleen Sebelius. Security was breached because the guards 
at the front accepted his credentials without question. Now, more than 
ever, we need to make sure that the people in place to protect our 
Federal buildings and employees are well-trained, certified, complying 
with orders, and adequately performing their duties.
    President Obama has stated that converting contractor positions to 
Federal positions is a priority. This conversion will allow the 
Government to provide better oversight, decrease costs, and ensure that 
the Federal Government is a key player in security decision-making. I 
would like to hear from Mr. Schenkel, Director of the FPS, as to the 
specific plans and details of making this conversion from contract 
guards to Federal employees.
    I look forward to hearing the ideas and recommendations from the 
rest of our distinguished panel of witnesses on improving the Federal 
Protective Service to further secure our Nation against threats.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back my time.

    Chairman Thompson. We will have two panels of witnesses 
today.
    I welcome our first panel of witnesses.
    Our first witness, Mr. Gary Schenkel, was appointed 
director of the Federal Protective Service in March 2007. Prior 
to joining FPS, he served as assistant Federal security 
director for TSA at Chicago-Midway Airport.
    Our second witness on the panel is Mr. Mark Goldstein, the 
director of physical infrastructure issues at the United States 
Government Accountability Office. Mr. Goldstein is 
responsibility for GAO's work in the areas of Government 
facilities and telecommunications.
    Our final witness to this panel is Mr. Clark Kent Ervin, 
director of the Aspen Institute's Homeland Security Program. 
Before joining the institute, Mr. Ervin served as a first 
inspector general of the United States Department of Homeland 
Security.
    We welcome all of our witnesses here today. We look forward 
to your testimony.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    I now recognize Mr. Schenkel to summarize his statement for 
5 minutes.

  STATEMENT OF GARY W. SCHENKEL, DIRECTOR, FEDERAL PROTECTIVE 
    SERVICE, NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schenkel. Thank you, Chairman Thompson, Ranking Member 
King, and other distinguished Members of the committee. I am 
pleased to appear before you today to discuss the work of the 
Federal Protective Service.
    As always, the Federal Protective Service shares the common 
goal of this committee of protecting Federal facilities and the 
proud men and women serving the country and the Federal 
Government, as well as the half a million visitors that visit 
our buildings every day.
    The Department of Homeland Security has been working with--
has been working to transform the Federal Protective Service 
from eleven regional organizations into one with its own 
operational and business practices, all into a single agency; 
and to improve the professionalism and performance of the 
Federal Protective Service and the contract workforce. That 
process has not been without its challenges. Nobody knows the 
hurdles that remain better than the men and women of the 
Federal Protective Service.
    We have, however, been making considerable progress in the 
process and procedures to address GAO's recommendations and 
Congressional concerns by enhancing the ability of the FPS to 
proactively identify and address performance issues.
    As your staff has seen in person, FPS now systematically 
measures the effectiveness of all FPS countermeasures through 
programs such as Operation Shield, which involves unannounced 
inspections to measure the effectiveness of contract guards in 
detecting the presence of unauthorized persons, potentially 
disruptive or dangerous activities in and around Federal 
facilities; and the ability of the guards to prevent the 
introduction of prohibited items or harmful substances into 
facilities.
    In addition, FPS is now conducting covert tests; increasing 
the frequency of post inspections; implementing a National 
standard for post inspections; and requiring additional 
training in magnetometer and X-ray screening.
    FPS has also developed a risk-assessment-management program 
known as RAMP, a web-based system that calculates facility 
risk; a computer-aided dispatch-information system, called 
CADIS. That will standardize our--that will standardize our 
reporting procedures, consolidate crime-and-incident reporting, 
and timestamp our operations; as well as the post-tracking 
system that will strengthen the accuracy of post staffing and 
billing, and will reduce the administrative burden on our 
inspectors.
    What these examples demonstrate is that instead of 
executing cosmetic or knee-jerk patches, we are in the process 
of building permanent solutions that, once fully implemented, 
are designed to yield the results that Congress, GAO, and the 
Department want in the Federal Protective Service.
    In addition, we have not ruled out the possibility of 
expanding our Federal workforce, or Federalizing or partially 
Federalizing the contract-security-guard workforce. We expect 
to complete the bottom-up staffing review currently underway, 
in time to inform the fiscal year 2012 budget request. In the 
interim, the Department remains committed to ensuring the 
organization is appropriately staffed, as evidenced by the 
2009, 2010, and 2011 budget requests, which were all equal to, 
or exceeding the 1,200 full-time-equivalent staffing level 
directed by Congress.
    I look forward to a healthy dialogue on how these efforts 
can and will provide the foundation FPS needs to start a new 
chapter in its history. I want to thank you for holding this 
important hearing, and for your continued support of our 
mission.
    [The statement of Mr. Schenkel follows:]
                 Prepared Statement of Gary W. Schenkel
                             April 14, 2010
    Thank you Chairman Thompson, Ranking Member King, and other 
distinguished Members of the committee. My name is Gary Schenkel, and I 
am the Director of the Federal Protective Service (FPS), which is now 
within the National Protection and Programs Directorate (NPPD). I am 
pleased to appear before you today to discuss the actions that the 
Department of Homeland Security (DHS) has undertaken to ensure the 
safety and security of Federal Government buildings.
                             fps background
    FPS is responsible for the security of more than 9,000 General 
Services Administration (GSA)-owned and leased facilities. FPS' primary 
tasks are to provide scheduled all-hazard, risk-based facility security 
assessments; recommend countermeasures; and implement the 
countermeasures approved by the Facility Security Committee 
representing each of the 9,000 facilities. FPS offers comprehensive 
physical security operations that include installing alarm systems, X-
rays, magnetometers, and entry control systems; monitoring installed 
systems around the clock; providing uniformed police response and 
investigative follow-up; providing Protective Security Officers (PSOs); 
hosting crime prevention seminars tailored to individual agency and 
employee needs; conducting facility security surveys; integrating 
intelligence gathering and promoting information sharing; and 
completing more than 35,000 background investigations annually.
    FPS conducts nearly 2,500 Facility Security Assessments annually 
and responds to approximately 1,400 demonstrations. In fiscal year 
2009, FPS responded to 35,812 calls for service, including 1,242 
protests and organized disturbances; made 1,646 arrests; conducted 
1,115 criminal investigations; processed 272 weapons violations; and 
prevented the introduction of 661,724 prohibited items into Federal 
facilities.
    This work is made possible by the more than 1,225 Federal law 
enforcement and support staff personnel, including 689 Law Enforcement 
Security Officers, who possess the authority and training to perform 
traditional police functions in connection with the protection of 
Federal facilities, including conducting Facility Security Assessments 
and implementing and testing security measures. The more than 15,000 
PSOs are well-trained individuals who complement the work of the 
Federal personnel. PSOs are members of facility security forces and 
have the training, equipment, and appropriate certifications to perform 
a specific security function.
                           fps in transition
    FPS was transferred from GSA to DHS in 2003. Since 2003, DHS has 
been working to transform FPS from 11 different regional organizations, 
each with its own business practices, into a single agency. To 
establish a systematic, strategic, and professional approach, FPS 
identified and shared best practices, developed standardized policies, 
identified problems, and developed solutions in its financial, 
administrative, and operational program areas. The transition also 
required a new strategic approach to the FPS protective mission, and 
the resulting FPS Strategic Plan focused on critical issues within the 
protective mission, including developing a sound strategic path forward 
focused on ensuring that facilities are secure and occupants are safe. 
Further, the transfer of FPS from U.S. Immigration and Customs 
Enforcement (ICE) to NPPD requested in the President's fiscal year 2010 
budget provided DHS with a single component responsible for the 
comprehensive infrastructure security program. The integration of FPS 
into NPPD enhanced DHS' overarching strategy and mission to lead the 
unified effort to improve our Nation's security.
    FPS has taken a number of steps to improve the professionalism and 
performance of its Federal and contract workforce. For example, FPS 
systematically measures the effectiveness of all FPS countermeasures. 
One of our most effective measurement programs is Operation Shield, in 
which FPS conducts unannounced inspections to measure the effectiveness 
of contract guards in detecting the presence of unauthorized persons; 
potentially disruptive or dangerous activities in or around Federal 
facilities; and the guards' ability to prevent the introduction of 
prohibited items or harmful substances into facilities. Operation 
Shield also serves as a visible, proactive, and random measure that may 
be used as a deterrent to disrupt the planning of terrorist activities.
    Though FPS has robust security activities in place, FPS is focused 
on continual improvement. FPS has addressed the 2009 GAO report 
regarding contract guard oversight and lapses in screening procedures 
by determining the root causes of the lapses and taking the following 
measures to prevent recurrence:
  <bullet> Increasing the frequency of post inspections of PSOs;
  <bullet> Requiring additional training in magnetometer and X-ray 
        screening including a contract modification requiring 100 
        percent contractor use of FPS-produced training that addresses 
        screening for improvised explosive devices;
  <bullet> Ensuring that all PSOs are contractually compliant with 
        certifications and qualifications, by incorporating the 
        certification system into the Risk Assessment Management 
        Program (RAMP); and
  <bullet> Developing and initiating a 16-hour magnetometer X-ray 
        training program, provided to PSOs by FPS Inspectors, titled 
        National Weapons Detection Program, which began in January 
        2010.
                testing and improving facility security
    As a result of a Covert Testing Working Group, FPS developed a 
Covert Testing Program, which enhanced and complemented the on-going 
overt efforts to improve oversight and promote the attentiveness and 
professionalism of the PSO. This program further achieves FPS strategic 
goals to effectively and efficiently ensure secure facilities and safe 
occupants. While the Covert Testing Program is a discreet investigative 
operation used to assess and validate the effectiveness of security 
countermeasures, Operation Shield is highly visible measure.
    FPS takes an all-hazards approach to the Facility Security 
Assessment, which is at the core of the agency's mission requirement. 
FPS' new RAMP is a web-based system that calculates risks--including 
terrorist, criminal, geologic, or meteorological--into an equation that 
is then measured against countermeasures to mitigate those risks. The 
Computer Aided Dispatch and Information System will standardize 
reporting procedures, consolidate crime and incident reporting, and 
time-stamp our operations, thus providing accurate data to support 
future staffing models. The Post Tracking System will strengthen the 
accuracy of post staffing and billing and will further reduce the 
administrative burden on our Inspectors, allowing them more time for 
conducting building security assessments, active patrol, and guard 
oversight.
    The activities I have highlighted have helped accomplish the goal 
of improving the FPS workforce and the ability of that workforce to 
fulfill the FPS mission. As a testament to our progress, we have closed 
or recommended for closure nearly half of the recommendations made by 
the GAO.
                       federal-contract guard mix
    We believe that we can effectively secure Federal buildings with 
the current mix of Federal staff and highly trained contract guards. 
However, as the Department implements the full FPS transition to NPPD 
from ICE, NPPD leadership is completing a bottom-up review of FPS that 
includes consideration of Federalizing or partially Federalizing the 
contract security guard workforce. The study looks at several 
operational alternatives including the conversion options regarding the 
15,000 contract guards to Federal positions. We expect to complete this 
study for inclusion in the fiscal year 2012 budget.
    While we believe we can effectively secure Federal buildings with 
the current mix of highly trained Federal staff and contract guards, we 
have not ruled out the possibility of expanding our Federal workforce 
to enhance the ability of our men and women to fulfill the FPS mission. 
DHS is currently studying staffing levels to ensure that FPS has the 
appropriate level of staffing in the right locations to fulfill its 
mission. The Department took immediate action following the 
introduction of minimum staffing levels in the Fiscal Year 2008 
Consolidated Appropriation Act, and the FPS budget requests in fiscal 
year 2009, fiscal year 2010, and fiscal year 2011 were all equal to or 
exceeded the 1,200 full-time equivalent staffing level directed by 
Congress, demonstrating the Department's commitment to ensuring the 
organization is appropriately staffed.
                               conclusion
    The Department will continue to work with public and private 
homeland security partners to ensure that Federal facilities are safe 
and secure.
    Thank you for holding this important hearing. I would be happy to 
respond to any questions you may have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Goldstein to summarize his statement 
for 5 minutes.

      STATEMENT OF MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Goldstein. Thank you, Mr. Chairman, and Members of the 
committee. Good morning. Thank you for the opportunity to 
testify about GAO's work on the Federal Protective Service and 
the protection of Government facilities.
    Over the past several years, GAO has produced a body of 
work reviewing the challenges faced by FPS and the Department 
of Homeland Security. We have discussed our work before this 
committee. To accomplish its mission of protecting about 9,000 
Federal facilities, FPS currently has a budget of about $1 
billion, about 1,225 full-time employees, and about 15,000 
contract security guards. FPS obligated $650 million for guard 
services in fiscal year 2009.
    This testimony is based on our report issued yesterday, 
April 13, 2010, and discusses challenges FPS continues to face 
in, No. 1, managing its guard contractors; No. 2, overseeing 
guards deployed at Federal facilities; and, No. 3, the actions 
FPS has taken to address these challenges.
    We have provided preliminary findings on some of these 
issues at hearings during the last 8 months. The report issued 
yesterday finalizes our report on these issues.
    Our major findings are as follows: First, FPS continues to 
face a number of challenges in managing its guard contractors 
that hamper its ability to protect Federal facilities. FPS 
requires contractors to provide guards who have met training 
and certification requirements. FPS' guard contract also states 
that a contractor who does not comply with the contract is 
subject to enforcement action.
    GAO reviewed the official contract files for the seven 
contractors who, as we testified in July 2009, had guards 
performing on contracts with expired certification and training 
requirements, to determine what action, if any, FPS had taken 
against these contractors for contract noncompliance. These 
contractors had been awarded several multiyear contracts 
totaling $406 million to provide guards at Federal facilities 
in 13 States and Washington, DC.
    FPS did not take any enforcement action against these seven 
contractors for noncompliance. In fact, FPS exercised the 
option to extend their contracts. FPS also did not comply with 
its requirement that a performance evaluation of each 
contractor be completed annually, and that these evaluations 
and other performance-related data be included in the contract 
file.
    Second, FPS also faces challenges in ensuring that many of 
the 15,000 guards have the required training and certification 
to be deployed at Federal facilities. In July 2009, we reported 
that, since 2004, FPS had not provided X-ray and magnetometer 
training to about 1,500 guards in one region. As of January 
2010, these guards had still not received training, and 
continued to work at Federal facilities in this region. X-ray 
and magnetometer training is important because guards control 
access points at Federal facilities.
    FPS currently does not have a fully reliable system for 
monitoring and verifying whether its 15,000 guards have the 
certifications and training to stand post at Federal facility. 
As Mr. Schenkel has indicated, FPS developed a new risk-
assessment-and-program-management system to help monitor and 
track guard certifications and training; however, FPS has 
experienced some difficulties with their system--until just a 
few days ago, temporarily suspending its use.
    In addition, once guards are deployed to a Federal 
facility, they are not always complying with assigned 
responsibilities. Since July 2009, FPS has conducted a number 
of penetration tests, 53 of which were in the six regions we 
visited. In nearly two-thirds of those tests, some guards were 
not able to identify prohibited items such as guns and knives.
    Third, in response to GAO's July 2009 testimony, FPS has 
taken a number of actions that, once fully implemented, could 
help address challenges it faces in managing its contract-guard 
program. For example, FPS has increased the number of guard 
inspections at Federal facilities in some metropolitan areas. 
FPS has also revised its X-ray-and-magnetometer training; 
however, guards will not be fully trained until the end of 
2010, although they are deployed at Federal facilities today.
    Despite FPS' recent actions, it continues to face 
challenges ensuring that a $659 million guard program is 
effective in protecting Federal facilities. Thus, GAO believes 
that, among other things, FPS needs to reassess how it protects 
the Federal facilities it protects, and rigorously enforce the 
terms of the contracts.
    In GAO's report related to this testimony, we recommended, 
among other things, that FPS identify other approaches that 
would be cost-beneficial--protecting to the facilities. The 
Department of Homeland Security concurred with seven of GAO's 
eight recommendations. DHS did not fully concur with our 
recommendation to issue a standardized record-keeping format to 
ensure contract files have the required documentation.
    This completes my testimony, Mr. Chairman. I would be happy 
to answer any questions that you and the Members have. Thank 
you.
    [The statement of Mr. Goldstein follows:]
                Prepared Statement of Mark L. Goldstein
                             April 14, 2010
                              gao-10-614t
    Mr. Chairman and Members of the committee: We are pleased to be 
here to discuss the results of our report on the Federal Protective 
Service's (FPS) contract guard program, issued April 13, 2010.\1\ As 
you are aware, FPS--within the National Protection and Programs 
Directorate (NPPD) of the Department of Homeland Security (DHS)--is 
responsible for protecting the buildings, grounds, and property that 
are under the control and custody of the General Services 
Administration (GSA), as well as the persons on the property; 
authorized to enforce Federal laws and regulations aimed at protecting 
GSA buildings and persons on the property; and authorized to 
investigate offenses against these buildings and persons.\2\ To 
accomplish its mission of protecting Federal facilities, FPS currently 
has a budget of about $1 billion,\3\ about 1,225 full-time employees, 
and about 15,000 contract security guards (guards) deployed at about 
2,360 Federal facilities across the country.\4\ In fiscal year 2009, 
FPS obligated $659 million for guard services, which represents the 
single largest item in its budget.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Federal Protective Service's Contract 
Guard Program Requires More Oversight and Reassessment of Use of 
Contract Guards, GAO-10-341 (Washington, DC: April 13, 2010).
    \2\ 40 U.S.C.  1315.
    \3\ Funding for FPS is provided through revenues and collections 
charged to building tenants of properties protected by FPS. The 
revenues and collections are credited to FPS's appropriation and are 
available until expended for the protection of Federally-owned and -
leased buildings and for FPS operations.
    \4\ While FPS does not use guards at the remaining 6,700 facilities 
under its protection, it uses other security countermeasures such as 
cameras and perimeter lighting to help protect these facilities.
---------------------------------------------------------------------------
    FPS's contract guard program is the most visible component of its 
operations as well as the first public contact for individuals entering 
a Federal facility. FPS relies heavily on its guards and considers them 
to be the agency's ``eyes and ears'' while performing their duties. 
Guards are primarily responsible for controlling access to Federal 
facilities by: (1) Checking the identification of Government employees 
as well as members of the public who work in and visit Federal 
facilities, and (2) operating security equipment, such as X-ray 
machines and magnetometers to screen for prohibited materials, such as 
firearms, knives, explosives, or items intended to be used to fabricate 
an explosive or incendiary device.\5\ Guards do not have arrest 
authority but can detain individuals who are being disruptive or pose a 
danger to public safety.
---------------------------------------------------------------------------
    \5\ Title 41 CFR Sections 102-74.435 and 102-74-440 identify and 
list items that are prohibited by law from being introduced into a 
Federal facility except for law enforcement purposes and other limited 
circumstances. Those items are explosives, firearms, or other dangerous 
weapons. In addition, Facility Security Committees, which are composed 
of representatives of tenant agencies at Federal facilities, have broad 
latitude in determining items in addition to those specifically 
prohibited by statute that can be prohibited in their facilities.
---------------------------------------------------------------------------
    This testimony, based on our report, discusses challenges FPS 
continues to face in: (1) Managing its guard contractors, (2) 
overseeing guards deployed at Federal facilities, and (3) actions FPS 
has taken to address these challenges. Our methodology included site 
visits to 6 of FPS's 11 regions. To select these 6 regions, we 
considered the number of FPS guards, contractors, and Federal 
facilities, and the geographic dispersion of the regions across the 
United States. At each region, we observed FPS's guard inspection 
process and interviewed FPS's regional manager, contract guard program 
managers, inspectors who are responsible for conducting guard 
inspections; guards, and contractors. We also randomly selected 663 out 
of approximately 15,000 guard training records that were maintained in 
FPS's Contract Guard Employment Requirements Tracking System (CERTS) 
and/or by the guard contractor and validated them against the 
contractual requirements that were in effect at the time of our review. 
We also reviewed the contract files for 7 of FPS's 38 guard 
contractors. We selected these 7 contractors because our previous work 
showed that they had contract compliance issues. In addition, we 
analyzed a random sample of 99 FPS contractor evaluations to determine 
how FPS evaluated the performance of its contractors on an annual 
basis.
    We also reviewed new contract guard program guidance issued since 
our July 2009 testimony and observed guard inspections and covert 
testing done by FPS in August and November 2009.\6\ Because of the 
sensitivity of some of the information in our report, we cannot provide 
information about the specific locations of the incidents discussed. We 
conducted this performance audit from July 2008 to February 2010 in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \6\ GAO, Homeland Security: Preliminary Results Show Federal 
Protective Service's Ability to Protect Federal Facilities is Hampered 
by Weaknesses in Its Contract Security Guard Program, GAO-09-859T 
(Washington, DC: July 8, 2009).
---------------------------------------------------------------------------
  fps faces challenges managing its guard contractors that hamper its 
                 ability to protect federal facilities
Some FPS Guard Contractors Did Not Always Comply with the Terms of 
        Contracts and FPS Has Not Taken Actions Against Them
    FPS has not taken actions against some guard contractors that did 
not comply with the terms of the contracts. According to FPS guard 
contracts, a contractor has not complied with the terms of the contract 
if the contractor has a guard working without valid certifications or 
background suitability investigations, falsifies a guard's training 
records, does not have a guard at a post, or has an unarmed guard 
working at a post at which the guard should be armed. If FPS determines 
that a contractor does not comply with these contract requirements, it 
can--among other things--assess a financial deduction for nonperformed 
work, elect not to exercise a contract option, or terminate the 
contract for default or cause.
    We reviewed the official contract files for the 7 contractors who, 
as we testified in July 2009, had guards performing on contracts with 
expired certification and training requirements to determine what 
action, if any, FPS had taken against these contractors for contract 
noncompliance. The 7 contractors we reviewed had been awarded several 
multiyear contracts totaling $406 million to provide guards at Federal 
facilities in 13 States and Washington, DC.
    According to the documentation in the contract files, FPS did not 
take any enforcement action against the 7 contractors for not complying 
with the terms of the contract, a finding consistent with DHS's 
Inspector General's 2009 report.\7\ In fact, FPS exercised the option 
to extend the contracts of these 7 contractors. FPS contracting 
officials told us that the contracting officer who is responsible for 
enforcing the terms of the contract considers the appropriate course of 
action among the available contractual remedies on a case-by-case 
basis. For example, the decision of whether to assess financial 
deductions is a subjective assessment in which the contracting officer 
and the contracting officer technical representative (COTR) take into 
account the value of the nonperformance and the seriousness of the 
deficiency, according to FPS contracting officials.
---------------------------------------------------------------------------
    \7\ The Inspector General found that FPS does not always take 
deductions against a contractor for services that are not provided in 
accordance with contract requirements. Department of Homeland Security, 
Office of Inspector General, Federal Protective Service Contract Guard 
Procurement and Oversight Process, OIG-09-51 (Washington, DC: April 6, 
2009).
---------------------------------------------------------------------------
FPS Did Not Always Comply with Its Procedures for Completing Annual 
        Performance Evaluations of Its Guard Contractors
    FPS requires an annual performance evaluation of each contractor 
and at the conclusion of contracts exceeding $100,000, and requires 
that these evaluations and other performance-related documentation be 
included in the contract file. Contractor performance evaluations are 
one of the most important tools available for ensuring compliance with 
contract terms. Moreover, given that other Federal agencies rely on 
many of the same contractors to provide security services, completing 
accurate evaluations of a contractor's past performance is critical. 
However, we found that FPS's contracting officers and COTRs did not 
always evaluate contractors' performance as required, and some 
evaluations were incomplete and not consistent with contractors' 
performance.
    We reviewed a random sample of 99 contract performance evaluations 
from calendar year 2006 through June 2009. These evaluations were for 
38 contractors. Eighty-two of the 99 contract performance evaluations 
showed that FPS assessed the quality of services provided by the 
majority of its guard contractors as satisfactory, very good, or 
exceptional. For the remaining 17 evaluations, 11 showed that the 
contractor's performance was marginal, 1 as unsatisfactory, and 
assessments for 5 contractors were not complete. According to 
applicable guidance, a contractor must meet contractual requirements to 
obtain a satisfactory evaluation and a contractor should receive an 
unsatisfactory evaluation if its performance does not meet most 
contract requirements and recovery in a timely manner is not likely.\8\
---------------------------------------------------------------------------
    \8\ As part of DHS, FPS is required to use the Department of 
Defense Contractor Performance Assessment System (CPARS) to officially 
document its performance evaluations. CPARS requires the use of an 
adjectival rating scale by evaluators that includes ratings of 
exceptional, very good, satisfactory, marginal, and unsatisfactory.
---------------------------------------------------------------------------
    Nevertheless, we found instances where some contractors received a 
satisfactory or better rating although they had not met some of the 
terms of the contract. For example, contractors receiving satisfactory 
or better ratings included the 7 contractors discussed above that had 
guards with expired certification and training records working at 
Federal facilities. In addition, some performance evaluations that we 
reviewed did not include a justification for the rating and there was 
no other supporting documentation in the official contract file to 
explain the rating. Moreover, there was no information in the contract 
file that indicated that the COTR had communicated any performance 
problems to the contracting officer.
  fps continues to face challenges with overseeing guards that raise 
             concern about protection of federal facilities
FPS Is Not Providing All Guards with X-ray and Magnetometer Training in 
        Some Regions
    As of February 2010, FPS had yet to provide some of its guards with 
all of the required X-ray or magnetometer training. For example, we 
reported in July 2009 that in one region, FPS has not provided the 
required X-ray or magnetometer training to 1,500 guards since 2004. FPS 
officials subsequently told us that the contract for this region 
requires that only guards who are assigned to work on posts that 
contain screening equipment are required to have 8 hours of X-ray and 
magnetometer training. However, in response to our July 2009 testimony, 
FPS now requires all guards to receive 16 hours of X-ray and 
magnetometer training. As of February 2010, these 1,500 guards had not 
received the 16 hours of training but continued to work at Federal 
facilities in this region. FPS plans to provide X-ray and magnetometer 
training to all guards by December 2010. X-ray and magnetometer 
training is important because the majority of the guards are primarily 
responsible for using this equipment to monitor and control access 
points at Federal facilities. Controlling access to a facility helps 
ensure that only authorized personnel, vehicles, and materials are 
allowed to enter, move within, and leave the facility.
FPS Lacks Assurance That Its Guards Have Required Certifications and 
        Training
    FPS currently does not have a fully reliable system for monitoring 
and verifying whether its 15,000 guards have the certifications and 
training to stand post at Federal facilities. FPS is developing a new 
system--Risk Assessment and Management Program (RAMP)--to help it 
monitor and verify the status of guard certifications and training. 
However, in our July 2009 report, we raised concerns about the accuracy 
and reliability of the information that will be entered into RAMP. 
Since that time, FPS has taken steps to review and update all guard 
training and certification records. For example, FPS is conducting an 
internal audit of its CERTS database. However, as of February 2010, the 
results of that audit showed that FPS was able to verify that about 
8,600 of its 15,000 guards met the training and certification 
requirements. FPS is experiencing difficulty verifying the status of 
the remaining 6,400 guards. FPS has also received about 1,500 
complaints from inspectors regarding a number of problems with RAMP. 
For example, some inspectors said it was difficult and sometimes 
impossible to find guard information in RAMP and to download guard 
inspection reports. Thus they were completing the inspections manually. 
Other inspectors have said it takes almost 2 hours to log on to RAMP. 
Consequently, on March 18, 2010, FPS suspended the use of RAMP until it 
resolves these issues. FPS is currently working on resolving issues 
with RAMP.
FPS Continues to Have Limited Assurance That Guards Are Complying with 
        Post Orders once They Are Deployed to Federal Facilities
    Once guards are deployed to a Federal facility, guards are not 
always complying with assigned responsibilities (post orders). As we 
testified in July 2009, we identified substantial security 
vulnerabilities related to FPS's guard program.\9\ FPS also continues 
to find instances where guards are not complying with post orders. For 
example, 2 days after our July 2009 hearing, a guard fired his firearm 
in a restroom in a level IV facility while practicing drawing his 
weapon. In addition, FPS's own penetration testing--similar to the 
covert testing we conducted in May 2009--showed that guards continued 
to experience problems with complying with post orders. Since July 
2009, FPS conducted 53 similar penetration tests at Federal facilities 
in the 6 regions we visited, and in over 66 percent of these tests, 
guards allowed prohibited items into Federal facilities. We accompanied 
FPS on two penetration tests in August and November 2009, and guards at 
these level IV facilities failed to identify a fake bomb, gun, and 
knife during X-ray and magnetometer screening at access control points. 
During the first test we observed in August 2009, FPS agents placed a 
bag containing a fake gun and knife on the X-ray machine belt. The 
guard failed to identify the gun and knife on the X-ray screen, and the 
undercover FPS official was able to retrieve his bag and proceed to the 
check-in desk without incident. During a second test, a knife was 
hidden on an FPS officer. During the test, the magnetometer detected 
the knife, as did the hand wand, but the guard failed to locate the 
knife and the FPS officer was able to gain access to the facility. 
According to the FPS officer, the guards who failed the test had not 
been provided the required X-ray and magnetometer training. Upon 
further investigation, only 2 of the 11 guards at the facility had the 
required X-ray and magnetometer training. In response to the results of 
this test, FPS debriefed the contractor and moved one of the guard 
posts to improve access control.
---------------------------------------------------------------------------
    \9\ As we testified in July 2009, each time they tried, our 
investigators successfully passed undetected through security 
checkpoints monitored by FPS guards with the components for an 
improvised explosive device (IED) concealed on their persons at 10 
level IV facilities in four cities in major metropolitan areas. We 
planned additional tests but suspended them after achieving 100 percent 
test results, which highlighted the vulnerabilities Federal facilities 
face. A level IV facility has over 450 employees and a high volume of 
public contact.
---------------------------------------------------------------------------
    In November 2009, we accompanied FPS on another test of security 
countermeasures at a different level IV facility. As in the previous 
test, an FPS agent placed a bag containing a fake bomb on the X-ray 
machine belt. The guard operating the X-ray machine did not identify 
the fake bomb and the inspector was allowed to enter the facility with 
it. In a second test, an FPS inspector placed a bag containing a fake 
gun on the X-ray belt. The guard identified the gun and the FPS 
inspector was detained. However, the FPS inspector was told to stand in 
a corner and was not handcuffed or searched as required. In addition, 
while all the guards were focusing on the individual with the fake gun, 
a second FPS inspector walked through the security checkpoint with two 
knives without being screened. In response to the results of this test, 
FPS suspended 2 guards and provided additional training to 2 guards.
recent actions taken by fps may help improve oversight of the contract 
                             guard program
    In response to our July 2009 testimony, FPS has taken a number of 
actions that, once fully implemented, could help address the challenges 
the agency faces in managing its contract guard program. For example, 
FPS:
  <bullet> Increased guard inspections at facilities in some 
        metropolitan areas. FPS has increased the number of guard 
        inspections to two a week at Federal facilities in some 
        metropolitan areas.\10\ Prior to this new requirement, FPS did 
        not have a National requirement for guard inspections, and each 
        region we visited had requirements that ranged from no 
        inspection requirements to each inspector having to conduct 
        five inspections per month.
---------------------------------------------------------------------------
    \10\ GAO-09-859T.
---------------------------------------------------------------------------
  <bullet> Increased X-ray and magnetometer training requirements for 
        inspectors and guards. FPS has increased its X-ray and 
        magnetometer training for inspectors and guards from 8 hours to 
        16 hours. In July 2009, FPS also required each guard to watch a 
        Government-provided digital video disc (DVD) on bomb component 
        detection by August 20, 2009. According to FPS, as of January 
        2010, approximately 78 percent, or 11,711 of the 15,000 guards 
        had been certified as having watched the DVD.
  <bullet> Implementing a new system to monitor guard training and 
        certifications. As mentioned earlier, FPS is also implementing 
        RAMP. According to FPS, RAMP will provide it with the 
        capability to monitor and track guard training and 
        certifications and enhance its ability to conduct and track 
        guard inspections. RAMP is also designed to be a central 
        database for capturing and managing facility security 
        information, including the risks posed to Federal facilities 
        and the countermeasures that are in place to mitigate risk. It 
        is also expected to enable FPS to manage guard certifications 
        and to conduct and track guard inspections electronically as 
        opposed to manually. However, as mentioned earlier, as of March 
        18, 2010, FPS suspended the use of RAMP until it can resolve 
        existing issues.
    Despite FPS's recent actions, it continues to face challenges in 
ensuring that its $659 million guard program is effective in protecting 
Federal facilities. While the changes FPS has made to its X-ray and 
magnetometer training will help to address some of the problems we 
found, there are some weaknesses in the guard training. For example, 
many of the 15,000 guards will not be fully trained until the end of 
2010. In addition, one contractor told us that one of the weaknesses 
associated with FPS's guard training program is that it focuses 
primarily on prevention and detection but does not adequately address 
challenge and response.\11\ This contractor has developed specific 
scenario training and provides its guards on other contracts with an 
additional 12 hours of training on scenario-based examples, such as how 
to control a suicide bomber or active shooter situation, evacuation, 
and shelter in place. The contractor, who has multiple contracts with 
Government agencies, does not provide this scenario-based training to 
its guards on FPS contracts because FPS does not require it. We also 
found that some guards were still not provided building-specific 
training, such as what actions to take during a building evacuation or 
a building emergency. According to guards we spoke to in one region, 
guards receive very little training on building emergency procedures 
during basic training or the refresher training. These guards also said 
that the only time they receive building emergency training is once 
they are on post. Consequently, some guards do not know how to operate 
basic building equipment, such as the locks or the building ventilation 
system, which is important in a building evacuation or building 
emergency.
---------------------------------------------------------------------------
    \11\ Challenge and response refers to being proactive instead of 
reactive to an incident.
---------------------------------------------------------------------------
    FPS's decision to increase guard inspections at Federal facilities 
in metropolitan areas is a step in the right direction. However, it 
does not address issues with guard inspections at Federal facilities 
outside metropolitan areas, which are equally vulnerable. Thus, without 
routine inspections of guards at these facilities, FPS has no assurance 
that guards are complying with their post orders.
    We believe that FPS continues to struggle with managing its 
contract guard program in part because, although it has used guards to 
supplement the agency's workforce since the 1995 bombing of the Alfred 
P. Murrah Federal Building, it has not undertaken a comprehensive 
review of its use of guards to protect Federal facilities to determine 
whether other options and approaches would be more cost-beneficial. FPS 
also has not acted diligently in ensuring that its guard contractors 
meet the terms of the contract and taking enforcement action when 
noncompliance occurs. We also believe that completing the required 
contract performance evaluations for its contractors and maintaining 
contract files will put FPS in a better position to determine whether 
it should continue to exercise contract options with some contractors. 
Moreover, maintaining accurate and reliable data on whether the 15,000 
guards deployed at Federal facilities have met the training and 
certification requirements is important for a number of reasons. First, 
without accurate and reliable data, FPS cannot consistently ensure 
compliance with contract requirements and lacks information critical 
for effective oversight of its guard program. Second, given that other 
Federal agencies rely on many of the same contractors to provide 
security services, completing accurate evaluations of a contractor's 
past performance is critical to future contract awards.
    Thus, in our report we recommend that the Secretary of Homeland 
Security direct the under secretary of NPPD and the director of FPS to 
take the following eight actions:
  <bullet> Identify other approaches and options that would be most 
        beneficial and financially feasible for protecting Federal 
        buildings;
  <bullet> Rigorously and consistently monitor guard contractors' and 
        guards' performance and step up enforcement against contractors 
        that are not complying with the terms of the contract;
  <bullet> Complete all contract performance evaluations in accordance 
        with FPS and Federal Acquisition Regulation requirements;
  <bullet> Issue a standardized record-keeping format to ensure that 
        contract files have required documentation;
  <bullet> Develop a mechanism to routinely monitor guards at Federal 
        facilities outside metropolitan areas;
  <bullet> Provide building-specific and scenario-based training and 
        guidance to its contract guards;
  <bullet> Develop and implement a management tool for ensuring that 
        reliable, comprehensive data on the contract guard program are 
        available on a real-time basis; and
  <bullet> Verify the accuracy of all guard certification and training 
        data before entering them into RAMP, and periodically test the 
        accuracy and reliability of RAMP data to ensure that FPS 
        management has the information needed to effectively oversee 
        its guard program.
    DHS concurred with seven of our eight recommendations. Regarding 
our recommendation to issue a standardized record-keeping format to 
ensure that contract files have required documentation, DHS concurred 
that contract files must have required documentation but did not concur 
that a new record-keeping format should be issued. DHS commented that 
written procedures already exist and are required for use by all DHS's 
Office of Procurement Operations staff and the components it serves, 
including NPPD. We believe that the policies referenced by DHS are a 
step in the right direction in ensuring that contract files have 
required documentation; however, although these policies exist, we 
found a lack of standardization and consistency in the contract files 
we reviewed among the three Consolidated Contract Groups.
    Overall, we are also concerned about some of the steps FPS plans to 
take to address our recommendations. For example, FPS commented that to 
provide routine oversight of guards in remote regions it will use an 
employee of a tenant agency (referred to as an Agency Technical 
Representative) who has authority to act as a representative of a COTR 
for day-to-day monitoring of contract guards. However, several FPS 
regional officials told us that the Agency Technical Representatives 
were not fully trained and did not have an understanding of the guards' 
roles and responsibilities. These officials also said that the program 
may not be appropriate for all Federal facilities. We believe that if 
FPS plans to use Agency Tenant Representatives to oversee guards, it is 
important that the agency ensure that the representatives are 
knowledgeable of the guard's responsibilities and are trained on how 
and when to conduct guard inspections as well as how to evacuate 
facilities during an emergency. Furthermore, while we support FPS's 
overall plans to better manage its contract guard program, we believe 
it is also important for FPS to have appropriate performance metrics to 
evaluate whether its planned actions are fully implemented and are 
effective in addressing the challenges it faces managing its contract 
guard program.
    Mr. Chairman, this concludes our testimony. We are pleased to 
answer any questions you might have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Ervin, to summarize his statement, for 
5 minutes.

  STATEMENT OF CLARK KENT ERVIN, DIRECTOR, HOMELAND SECURITY 
                  PROGRAM, THE ASPEN INSTITUTE

    Mr. Ervin. Thank you, Mr. Chairman, Mr. King, and Members, 
for inviting me to testify today on this important topic.
    Investigation after investigation and report after report, 
year after year, have documented in detail FPS' apparent 
inability to carry out its most critical mission--protecting 
Federal buildings against the threat of terrorism in the post-
9/11 age. In my judgment, the time has come to take the 
admittedly radical step of Federalization of the agency's 
contract-guard force. There are at least two good reasons to 
think that taking this step can make FPS more effective.
    First, logic: It is inarguable that private contractors are 
primarily motivated by the desire to make a profit, and as much 
profit as possible. This is not a normative statement; it is a 
factual one. The way to maximize profit is to minimize costs. 
The less guards are paid in salary and benefits, and the less 
money is invested in their training, the more profit their 
contractor employees can make.
    By way of contrast, the public's interest, needless to say, 
is in maximizing security. Security is costly. While not a one-
to-one ratio, certainly, the better guards are paid and 
trained, the better they are at providing security, because 
they are more qualified and motivated to do so.
    Second, experience: The reason we created TSA after 9/11 
and Federalized the airport passenger-and-baggage-screener 
workforce was the recognition that, left to their own devices 
before the attacks, contractors put profit ahead of security. 
For all the problems that remain with screeners today, they are 
better trained, better motivated, and better paid than they 
were before the terror attacks.
    Now, that said, let me hasten to add that Federalization in 
and of itself is no panacea. Likewise, both logic and 
experience make the case. First, logic: If other factors are 
equal, there is no good reason to think that merely exchanging 
a public paycheck for a private one will improve guard 
performance. Those relevant factors--salary and benefits, 
including promotion opportunities, training, and the degree of 
oversight exercised, and accountability obtained--matter 
enormously.
    Second, experience: As telegraphed above, and as we all 
very well know, the Federalized TSA-screener workforce 
continues to have its challenges, to put it charitably. 
Recalling my own such reports during my time as DHS inspector 
general at the inception of the Department, I continue to 
despair every time I see another report that shows little to no 
improvement in screeners' ability to spot concealed weapons.
    That said, the conclusion to be drawn from TSA's continued 
challenges, I would argue, is not that Federalizing the 
screener workforce was a mistake. Instead, the conclusion to be 
drawn is what I said a second ago--that Federalization in and 
of itself is not a panacea. I believe that Federalized 
screeners should receive even higher salaries and more 
benefits; more promotion opportunities; more intensive 
training; and more and better technology.
    If this were to be done, in time, it would stand to reason 
that results would measurably improve; furthermore, TSA 
suffered greatly by the manner in which the screener workforce 
was Federalized. Because of Congressional pressure in the wake 
of 9/11 to do something quick, we didn't do Federalization 
smart. By that, I mean the process was so rushed that some 
60,000 screeners weren't properly vetted, much less trained.
    So I would urge that Federalization, if done with regard to 
FPS guards, be done deliberately, with due time for thorough 
planning, vetting, and training. I note in my prepared 
statement that a number of airport screeners were hired before 
their background checks were complete, only to learn, after the 
fact, that a number of them had been convicted of serious 
crimes. Even after learning that, TSA, in some instances, took 
months to dismiss those guards. So the ultimate size of the 
guard force should, needless to say, be driven by security 
concerns and not budgetary ones, which was not the case with 
TSA.
    In short, and to conclude, Federalization, if done right, 
would not be cheap, quick, or easy. But with adequate 
resources, planning, and deliberation, and due oversight, it 
would likely result in making Federal workers safer at a time 
when we know that terrorists are working overtime to exploit 
security gaps. Thank you.
    [The statement of Mr. Ervin follows:]
                 Prepared Statement of Clark Kent Ervin
                             april 14, 2010
    Thank you, Chairman Thompson, Ranking Member King, and Members for 
inviting me to testify today on this important topic, ``Federal 
Protective Service: Would Federalization of Guards Improve Security at 
Critical Facilities?''
    Investigation after investigation, and report after report, year 
after year, have documented in detail FPS' apparent inability to carry 
out its most critical mission--protecting Federal buildings against the 
threat of terrorism in the post-9/11 age. In my judgment, the time has 
come to take the admittedly radical step of Federalizing the agency's 
contract guard force. There are at least two good reasons to think that 
taking this step can make FPS more effective.
    First, logic. It is inarguable that private contractors are 
primarily motivated by the desire to make a profit, and as much profit 
as possible. This is not a normative statement; it is a factual one. 
The way to maximize profit is to minimize costs. The less guards are 
paid in salary and benefits and the less money is invested in their 
training, the more profit their contractor-employers can make. By way 
of contrast, the public's interest, needless to say, is in maximizing 
security, and security is costly. While not a one-to-one ratio, 
certainly, the better guards are paid and trained, the better they are 
at providing security because they are more qualified and motivated to 
do so.
    Second, experience. The reason we created TSA after 9/11 and 
Federalized the airport passenger and baggage screener workforce was 
the recognition that, left to their own devices before the attacks, 
contractors put profit ahead of security. For all the problems that 
remain with screeners today, they are better paid, better trained, and 
more motivated than they were before the terror attacks.
    Now, that said, let me hasten to add that Federalization, in and of 
itself, is no panacea. Likewise, both logic and experience make the 
case.
    First, logic. If other relevant factors are equal, there is no good 
reason to think that merely exchanging a public paycheck for a private 
one will improve guard performance. Those relevant factors--salary and 
benefits (including promotion opportunities); training; and the degree 
of oversight exercised and accountability obtained--matter enormously.
    Second, experience. As telegraphed above, and as we all very well 
know, the Federalized TSA screener workforce continues to have its 
challenges, to put it charitably. Recalling my own such reports during 
my time as DHS Inspector General at the inception of the Department and 
the transition from a privatized screener workforce to a Federalized 
one, I despair every time I see another DHS Inspector General, GAO, or 
media report that shows little to no improvement in screeners' ability 
to spot artfully concealed guns, knives, and explosives, and, 
sometimes, even barely concealed ones.
    That said, the conclusion to be drawn from TSA's continued 
challenges, I would argue, is not that Federalizing the screener 
workforce was a mistake. Instead, the conclusion to be drawn is what I 
said a second ago--Federalization in and of itself is not a panacea. I 
believe that Federalized screeners should receive even higher salaries 
and benefits; more promotion opportunities; more intensive training 
(including more frequent and more rigorous covert tests); and more and 
better technology. The quality of their work should be rigorously 
overseen by supervisors and managers, and those supervisors and 
managers, and ultimately the employees themselves, should be held 
strictly accountable for poor performance. If this were to be done, in 
time, it would stand to reason that results would measurably improve.
    Furthermore, TSA suffered greatly by the manner in which the 
screener workforce was Federalized. Because of Congressional pressure 
in the wake of 9/11 ``to do something quick,'' we didn't ``do 
Federalization smart.'' By that I mean the process was done so 
hurriedly that some 60,000 screeners weren't properly vetted, much less 
trained. One of my earliest reports as DHS IG concerned the fact that 
some screeners had been hired by TSA before their background checks 
were complete, only to learn after the fact that they'd been convicted 
of crimes, in some cases, serious ones. And, in some instances, it took 
TSA some months even after learning of such instances to fire the 
screeners.
    So, I would urge that Federalization, if done with regard to FPS 
guards, be done deliberately, with due time for thorough planning, 
vetting and training. And, the ultimate size of the guard force should, 
needless to say, be driven by security concerns, not budgetary ones.
    In short, Federalization, if done right, would not be cheap, quick, 
or easy. But, with adequate resources; planning and deliberation; and 
due oversight, it would likely result in making Federal workers safer 
at a time when we know that terrorists are working overtime to exploit 
security gaps.

    Chairman Thompson. Thank you very much.
    I would like to thank all of the witnesses for their 
testimony. I will remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Mr. Goldstein, according to your testimony, with the 
exception of one item, FPS agreed with your finding?
    Mr. Goldstein. Yes, sir.
    Chairman Thompson. Mr. Schenkel, some of those findings 
were quite revealing. Can you tell the committee why, in those 
instances of contractor noncompliance, FPS took no action 
against them?
    Mr. Schenkel. It was not a case that we did not take any 
action. It is that we took what we determined to be appropriate 
action. Those were deductions from the pay--invoicing of those 
contractors. What we have to do is deal with not only our 
perceptions and our paperwork, and our evaluations of the 
different contractors. We are also tied by the FAR. They have 
different--I wouldn't say ``different,'' but let us say more 
stringent criteria for terminating contracts.
    We have to look at the contractor's performance as a whole. 
If the contractor performed on the positive side--on the 
exceptional side, to the right--then we would retain the 
contract. If it was not, then we would terminate the contract, 
which we had done probably eight or nine times in the last 
several years.
    Chairman Thompson. Well, Mr. Goldstein, according to your 
report--and I could be corrected, but--you were unable to find 
any enforcement actions taken?
    Mr. Goldstein. That is correct, Mr. Chairman.
    There was a combination of no evidence in the files; and in 
our discussions with agency representatives who do contract 
management. We specifically asked whether there were any fines 
or deductions, or whether there were any other kinds of actions 
taken. Neither the individuals that we talked to, nor the files 
themselves supported any actions, which is how we drew the 
conclusion that no actions had been taken.
    Chairman Thompson. Mr. Schenkel, you just said to us that 
you all took some money from people, and Mr. Goldstein said he 
asked you for the records, and they weren't in the records, 
so--anything like that. Can you help us out?
    Mr. Schenkel. I certainly don't claim to be a contracting 
expert, sir, but what I can say is that perhaps we are not 
looking at the same records. The individual contracts that Mr. 
Goldstein looked at may not have had terminating action or 
deductions. There is a term called ``benefit to the 
government'' that I understand from the contracting people--
that even if the contract, perhaps, is not complied with to its 
fullest, if the Government receives a benefit from it, we are 
still obligated to pay.
    Chairman Thompson. Well, that is amazing that we are 
obligated to pay, even though people don't perform the 
contract.
    Mr. Schenkel. To the extent that I am familiar with the FAR 
and the obligation on that--yes, sir.
    Chairman Thompson. Okay. If you would, the testimony you 
just offered us about those contractors that have been reduced 
in contract amount--we would love to have them--for whatever 
period of time you are talking about.
    I would hope the GAO would love to have it, too, since you 
asked for it and didn't get it.
    Who manages the contracts, Mr. Schenkel?
    Mr. Schenkel. Right now, we have the consolidated contract 
group that falls under FPS. However, the direction is now 
controlled by the Office of Procurement at DHS. Previous to 
that, it was the Office of Acquisition at ICE. FPS does not 
have direct control over it, sir.
    Chairman Thompson. The fact that we have several hundred 
employees--contract employees--who have not met training 
requirements--does that cause concern on your part?
    Mr. Schenkel. Yes, it does.
    Chairman Thompson. How have you corrected it?
    Mr. Schenkel. We have taken on--and to use a term that we 
have used over and over in these last several months--is we 
want to get it right, rather than ``right now.'' So, 
consequently, we have developed some very detailed training 
programs.
    The one that was described by Mr. Goldstein, the National 
Weapons Detection Program, which we have already initiated in 
the National Capital Region as of January of this year--this 
will ensure that FPS personnel inspectors actually provide the 
training to our contract employees. We have also instituted the 
National Countermeasures Program to ensure the consistency and 
accuracy, and the ability of our equipment to work properly and 
to coincide with the----
    Chairman Thompson. So, before you did that, what 
accountability did we have for our contracts?
    Mr. Schenkel. Prior to that, the documentation had to be 
provided by the contractor, as well as the obligation to 
provide the training still lies with the contractor. We have 
taken on that piece of training, internal to the FPS.
    Chairman Thompson. But you would have to have some 
oversight on the contract to know that they are doing it. Is 
that FPS' role?
    Mr. Schenkel. Yes, that is FPS' role.
    Chairman Thompson. So did you take any personnel actions 
against FPS employees who had oversight responsibilities for 
the contract--that were in noncompliance?
    Mr. Schenkel. Well, we took action against the contractors. 
A a good case in point was the White Oak facility that the GAO 
had investigated during their audit. As a result of that, we 
terminated the contract with White Oak----
    Chairman Thompson. That is good you did. But GAO found it, 
not FPS.
    Mr. Schenkel. It was a combination. It was a combination 
that--GAO had identified guards without certifications. When 
National Capital Regional went in to further investigate, and 
investigate the post, they found that some of the people did 
not have the certification, but were not serving on positions 
that would require that specific certification.
    As they dug deeper, they found even others that did not 
have the appropriate certifications for the posts. They were 
standing. They were immediately relieved. Consequently, we 
ended up terminating the contract.
    Chairman Thompson. Mr. Goldstein--and you just heard Mr. 
Schenkel talk about White Oak. Is that your understanding of 
what happened?
    Mr. Goldstein. We actually did not specifically investigate 
White Oak. That was something that they did themselves. We 
looked more broadly at the certification process.
    We remain concerned about this process, as we indicate in 
our report, not only because we think it has been very 
difficult on a real-time basis for FPS to determine whether 
their guards are certified at any one point--in fact, the 
agency, as far as we understand, still is unable to certify--
understand that some 6,000 of their guards are fully certified 
today, even though this issue has been outstanding now for 
nearly a year.
    We found, in Operation Shield, when we accompanied FPS, 
that many of the contractors on site, when they have gone in 
and done these sweeps--many of the contractors are not 
certified; and one that we accompanied them--on a level-four 
building--only two out of 11 contract employees were certified 
at that point in time. So it remains a real problem.
    Chairman Thompson. So of the 15,000 contract employees, you 
are saying it could be as many as 6,000 that we can't verify 
credentials?
    Mr. Goldstein. That is correct.
    Chairman Thompson. I yield back the balance of my time.
    Ranking Member, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Schenkel, you know, considering the title of today's 
hearing, have you conducted any cost-benefit analysis as to 
what would be gained or lost by Federalizing the workforce?
    Mr. Schenkel. FPS has conducted numerous bottom-up reviews 
of its own organization and restructuring. We have examined 
multiple ways of either expanding the Federal force or 
contracting the contract force. The answer is yes, sir. We have 
multiple options.
    Mr. King. Okay. What are the conclusions--you know, 
focusing on Federalization--have you reached any conclusions?
    Mr. Schenkel. Regardless of who pays the--or who signs the 
paycheck--I think that there are some--some qualifying factors 
that have to be met. First of all is, the guards themselves 
have to have a very clear, concise understanding of the 
mission. To accompany that, they need an absolutely supportive 
training support. They have to receive the training necessary 
to perform that mission.
    On top of that, we need a good quality supervision program 
in an operational construct that will keep them motivated, and 
keep those who would harm us off balance. There are cost 
benefits to staying with the contract-guard force. There are 
flexibilities that are built into staying with contract-guard 
force that may or may not be viable under Federalizing. But 
there is also benefits, as Mr. Ervin described, to the 
Federalizing of the guard.
    Mr. King. Are you in a position to make any 
recommendations?
    Mr. Schenkel. We have offered several options to the 
Department, which are under review right now, sir.
    Mr. King. Is the Department giving you any indication when 
a decision will be made, if they are considering a decision?
    Mr. Schenkel. They are considering a decision prior to the 
submission of the 2012 budget, sir.
    Mr. King. Okay.
    When you conducted these analyses, did you reach out to 
TSA? Did you do any comparisons with TSA?
    Mr. Schenkel. Yes, sir, as a matter of fact, we did. We 
work a lot with TSA. Their missions appear, on the surface, 
very similar to ours. Though, as you kind of drill down into 
those missions, though, they are significantly different. But 
there are some commonalities.
    We did work with the TSA, and talk with the TSA about some 
of their experiences. When I was with the TSA, I was kind of on 
the tail end of the Federalization of that force.
    Mr. King. If I can get to the 9/11 trials--your testimony 
several months ago--you said that the Federal Protective 
Service would not have enough personnel to secure the 
perimeters of the court facilities in New York, if the trials 
were held. Has that situation improved at all?
    Mr. Schenkel. We continue to work with the U.S. Marshals 
Service to evaluate where and when these trials may take place. 
As I testified previously, if they are protracted to the 
periods that we are being told now--up to 20 years--and if they 
run simultaneous trials in locations, whether it be New York or 
other locations, it would put a definite strain on the Federal 
Protective Service to accomplish its primary mission. So we 
would have to be augmented.
    Mr. King. Okay. But has the situation improved since your 
last--you know, since you testified here?
    In other words, have you had any increase in personnel 
since you----
    Mr. Schenkel. Sir, we remain at 1,225, sir.
    Mr. King. Okay.
    Now, as far as the CIRG teams, which I understand would be 
used to fill in if there were shortages--these were the 
Critical Incident Response Teams--has there been any increase 
in them? Any increase in funding? Can you make better use of 
them now than you would have been able to 2 or 3 months ago?
    Mr. Schenkel. I am very proud of our Critical Response 
Teams. Our inspectors and FPOs provide a service, I think, far 
beyond what other law-enforcement agencies can provide, just 
because of their training, their background, their dedication. 
But our budget remains the same, sir.
    Mr. King. So I assume the answer is that you do not have 
enough personnel to secure the trials. If the trials began 
tomorrow in New York, you would not have enough personnel to 
secure the perimeter of the facilities?
    Mr. Schenkel. We would be strained after the initial 2 
weeks, sir.
    Mr. King. After the initial 2 weeks?
    Mr. Schenkel. Yes, sir.
    Mr. King. Okay.
    Mr. Chairman, I yield back.
    Chairman Thompson. Thank you very much.
    Mr. Schenkel, are you aware of the $200 million that is in 
the budget that has been allocated for GITMO trials?
    Mr. Schenkel. It is my understanding, Mr. Chairman, though, 
that that is going to the States. It is in grant money. We, 
consequently, can't share any of that.
    Chairman Thompson. Oh. Thank you.
    Will you provide the committee with copies of those studies 
you referenced with Mr. King, that you have done to analyze 
whether FPS should stay Federalized--be Federalized, or not to 
be? We have, from committee--from staff--we requested some 
information relative to any research or studies. We have not 
been able to get it. But your testimony today says that you do 
have that information. We would like to have it as a committee.
    The Chair recognizes the gentlelady from California for 5 
minutes.
    Ms. Harman. Thank you, Mr. Chairman, for holding this 
hearing.
    Welcome to the witnesses, especially to my longtime friend, 
Mr. Ervin, who I always think speaks truth to power, and I 
appreciate it. I am not sure who has power, but I know he has 
truth.
    I would first like to thank the FPS employees, and the 
contractors, who work with you, who try very hard to do their 
jobs right. Let us understand that mistakes are made. Some of 
the employees are undertrained. Some of them may even, for 
other reasons, not perform properly. But I would guess that 
most FPS employees and most of the contractors who work for you 
try to do a good job every day. Would you all agree with that?
    Mr. Goldstein. Certainly.
    Ms. Harman. So let us remember to say thank you to those 
who try very hard. I don't want them to get the message that we 
think the entire place needs to be scrapped.
    Having said that--some very dangerous things have happened 
in the last year; you all know this. If James Von Brunn had 
actually gotten into the Holocaust Museum, beyond the security 
perimeter of it, he could have shot and killed many innocent 
Americans and foreigners who visit that museum. Is that not 
correct? I am asking all of you. Does anyone disagree with 
that? No.
    If Johnny Wicks, who opened fire with a shotgun in a Las 
Vegas Federal courthouse and killed one person, had gotten into 
that courthouse, he could have done the same thing. Is that 
correct?
    Mr. Ervin. Sure.
    Mr. Schenkel. Absolutely.
    Ms. Harman. If Andrew Stack, who flew his airplane into a 
Federal office building in Austin, and killed an IRS employee, 
had, perhaps, hit that facility differently, he could have 
killed a lot of people, too.
    If these death threats against Members of Congress and 
others were actually carried out, a lot more people could die, 
right?
    Mr. Ervin. Right.
    Mr. Schenkel. Right.
    Mr. Goldstein. Right.
    Ms. Harman. So it is critically important that we get this 
right.
    I am rather moved by Mr. Ervin's point that if we 
Federalize the workforce right, we may get to a better place. 
But we are not going to do that tomorrow, and it won't be 
cheap, right?
    Mr. Ervin. Absolutely.
    Ms. Harman. So, in the mean time, I think we have some work 
to do. I would like to suggest two areas, and make one final 
point.
    In fact, let me make the final point now so I don't run out 
of time. That final point is to Mr. King.
    I don't know exactly what the costs are for protecting 
court facilities in lower Manhattan, but I would like to put on 
this record that the track record for trying people convicted 
of terrorism-related crimes in U.S. Federal courts since 9/11 
is exemplary. We have charged over 500 people. More than 320 
have pleaded ``guilty.'' Virtually 90 percent of those folks 
are incarcerated now in supermax prisons, where they are no 
danger to the public.
    In contrast, we have used military commissions three times. 
Two of the people who were convicted are no longer 
incarcerated. So we have one conviction in military 
commissions. We better be careful before we abandon Article 3 
courts as the remedy of choice, among other choices for trying 
people convicted of--or charged with terrorism crime--with 
related crimes.
    At any rate--two of my points here--I think there are two 
things. One is better training. The second is better 
situational awareness. I think we all agree on better training. 
Situational awareness includes understanding what the threats 
might be, and in what form they would come. That requires 
sharing appropriate intelligence. That is the focus of my 
subcommittee on this full committee.
    I want to ask you what your own recommendations are for 
making certain that our FPS employees and contractors have 
better situational awareness. Should we, for example, share, on 
a periodic basis, some of the materials that are prepared by 
the NCTC through the so-called ITACG, this group of law-
enforcement professionals who come to Washington on a rotating 
basis and help advise us? Would that be helpful? Or would some 
other form of intelligence-product sharing be helpful? Let me 
just leave that as a question for all three of you.
    Mr. Schenkel. Do you want me to take that first?
    Yes, ma'am. We totally agree with you. We do have a very 
robust intelligence and information-sharing program. We 
recognized that early on, with our paltry size. In 2007, we 
initiated the Regional Intelligent Agent Program, where we have 
a dedicated individual in each of our 11 regions. That regional 
intelligence agent has one of the more challenging jobs because 
he or she has to take the intelligence that--that we get from 
our 13-membered--we have a presence on 13 JTTFs directly 
related to our primary facilities. We also have membership on 
the National JTTF.
    We collaborate with State fusion centers--any intelligence 
agency that we can draw information from, we draw through that 
regional intelligence agent. That regional intelligence agent 
then has to sanitize that based on the classification. We are 
able to get that threat information in a timely manner, and in 
a very specific and detailed target audience, whether it be a 
specific facility or a multiple facilities, or a metropolitan 
area.
    So we are big believers in that concept.
    Ms. Harman. Thank you.
    My time has expired, Mr. Chairman, but could the other two 
panelists answer the question? Thank you.
    Mr. Goldstein. Sure.
    We have not specifically looked at this, ma'am. I can tell 
you that, in the course of our audit, we have heard from many 
inspectors out in the field that they did not feel that they 
received sufficient information to be able to adequately 
protect or understand the threats to the buildings they were 
responsible for.
    I do think, over the last couple years, it has improved 
some, but it may not be sufficient yet.
    Mr. Ervin. Likewise, Ms. Harman, I would agree with that. I 
definitely think that NCTC should widely share its information 
with FPS. Only if they have access to that intelligence, can 
the guards there, whether they are Federalized or privatized, 
be aware of trends and patterns that are of note. I would 
finally note, as you know, that TSA has its own intelligence 
unit within itself, which works closely with DHS as a whole, 
and the rest of the intelligence community. I would urge the 
creation of something like that for FPS.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from California, Mr. 
Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I have 
great respect for my colleague from California, but I could not 
disagree with her more with respect to how we ought to try 
these individuals. If one thinks that the trial that took place 
in Virginia was a successful trial, given the circus that that 
was, and the threat to the people in the area, I would be 
amazed.
    Secondly, with respect to Khalid Sheikh Mohammed and his 
comrades, they were prepared to plead ``guilty'' in the trial 
in Guantanamo. Our Government did not accept that. To suggest 
that is an appropriate place to bring them to New York City, to 
be tried in Article 3 courts, because we have to prove 
something about our constitution, frankly, I think, is 
nonsensical. It is not a partisan thing. As I understand it, 
Mayor Bloomberg, Senator Schumer, the other Senator from New 
York, also oppose that occurring.
    I don't understand this fixation with bringing them to 
Article 3 courts, and giving them a different level of justice 
than even our men and women in uniform would be if they were 
charged with some offense, when they go before military courts 
of their own.
    I may be very sensitive about today's hearing because it 
talks about Federalization of guards, meaning that--the 
suggestion is the only way we can improve things--if we 
Federalize the workforce. I was just home in my district, where 
we have Federalized the student-loan program and the EdFund, 
which happens to be headquartered in my district has already 
laid off 75 people.
    The private industry may lose as many as 31,000 employees 
as a result of our vote, just 2 weeks ago, Federalizing that 
program. There seems to be a fetish around here about 
Federalizing programs, despite the fact it causes people to 
lose jobs. When I find 75 have already lost jobs in my 
district--hundreds more may, and thousands across the country.
    So let us also understand we have people who are working, 
doing a very good job for us, who are contractors, whose jobs 
would be lost if we Federalized the workforce, No. 1.
    No. 2, I note that, for fiscal year 2010, in the 
President's budget request, he asks no additional resources for 
FPS. Now, I understand he understands we have got a tough 
budget situation. But I also understand every study that has 
been done about Federalizing this force we are talking about 
here would increase the cost per employee to the Federal 
budget.
    So, perhaps what we should be focusing on is, since we have 
limited resources, how we utilize those limited resources in a 
better fashion. The testimony here is somewhat critical--at 
least, following the questioning of the Chairman--of FPS, and 
supervising the contractors. Those who supervise the 
contractors are Federal employees, are they not?
    Mr. Schenkel. Yes, sir.
    Mr. Lungren. How do we Federalize the Federalized 
employees, then? I mean, presumably, it is the question of 
proper performance on the job, whether you are a Federal 
employee or whether you are a contract employee. Perhaps we 
need to focus a little bit more on tightening up the oversight 
of the contract employees as opposed to saying, ``We are just 
going to Federalize the employees, and that is going to solve 
all the problems.''
    When we have had these tests on TSA, as been pointed out by 
Mr. Ervin in the past, we have had some failures; and, in part, 
because we didn't have a rigorous-enough screening program or 
oversight program for those screening functions that they 
undertook, whether they were TSA employees or contract 
employees that we have at some of the airports. Isn't that 
correct, Mr. Ervin?
    Mr. Ervin. That is right.
    So, you know, I agree with your point, Mr. Lungren. I said 
that in my statement--that Federalization in and of itself 
isn't a panacea. There has got to be training. There has got to 
be----
    Mr. Lungren. Right.
    Mr. Ervin [continuing] Adequate salary and promotions. 
There has got to be due oversight.
    I think it is telling, for example, that, if I may----
    Mr. Lungren. Before you go there, I would just have to--I 
completely disagree with your point of view that something is 
essentially wrong with profit--that the profit motive 
essentially takes away from performance, and that, if we had 
Federal employees, they would do better because they are not 
contractors who work in the world of profit.
    I just reject that notion that you stated on the record, 
absolutely. Frankly, we heard that argument on the floor of the 
House just 2 weeks ago, when we destroyed an entire industry, 
which facilitated Ugovernment loan--or facilitated college 
loans.
    So I am sorry. I just disagree with that.
    Mr. Ervin. May I respond to that, sir? May I?
    Mr. Lungren. Yes, sir.
    Mr. Ervin. I actually did not say that. I specifically said 
that by saying that, ``the primary motivation of contractors is 
a profit motive--that is not a normative statement,'' meaning, 
``That is not a judgment. That is not bad. It is just a 
factual''----
    Mr. Lungren. Well, you went on to say, ``Therefore, they 
are concerned about profit as opposed to doing the job.''
    Mr. Ervin. Right--that their primary motivation is profit, 
as opposed to security.
    I think, for example, sir, that it is telling that we have 
a Federalized guard force for the White House, for DOD, for 
CIA, and for the Capitol itself. Why is that? I think, because 
the judgment has been made that the security of these 
facilities is so important that they ought to be overseen by 
Federal employees. So the question that that raises is: Why 
don't we make the same judgment with regard to other Federal--
--
    Mr. Lungren. So what does that have to do with profit?
    Mr. Ervin. The point is if the primary motivation of the 
employer is profit as opposed to security, then corners will be 
cut. I think we have seen that----
    Mr. Lungren. Well----
    Mr. Ervin [continuing] Both in the pre-9/11----
    Mr. Lungren. Well, I appreciate your suggestion--I 
appreciate your suggestion that the ultimate conclusion of 
profit is cutting corners. I disagree with that in terms of 
responsible individuals. Our economic system--our private 
economic system is based on profit. Some would suggest that is 
the reason why, in the past, we have had the most dynamic 
private workforce, with the greatest application of technology 
to perform jobs in the history of the world. But thank you very 
much.
    Chairman Thompson. Thank you--gentleman's time has expired.
    Gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Why don't we just have 
a mercenary military? We can hire all of the persons who now 
serve us bravely and capably, and pay them a salary that 
contractors would, and somehow pass on to them? Why not the 
police department; mercenary police officers could work as well 
in all of our major cities?
    I find a great deal of comfort in knowing that the person 
who comes to my home as a peace officer has the authority to 
arrest. My belief is that the contract employees do not have 
this authority. Mr. Ervin, is there some truth in what I have 
said?
    Mr. Ervin. That is right, Mr. Green.
    Mr. Green. Do you find some degree in comfort in knowing 
that Federal officers have the authority to arrest and to 
detain, and to question, and to do so under the color of law?
    Mr. Ervin. Absolutely. There is no question about that.
    Mr. Green. Do you also find that it is of benefit to have a 
military that is not mercenary? In fact, we didn't start out 
with militaries that were in the paradigm that we have today. 
Militaries, initially, were mercenaries. We found that it just 
wasn't effective to have mercenaries performing the duties of 
military officers.
    Now, having said this, I want to make it very clear that we 
are not, in any way, implying that the contract workers are 
mercenaries. I am saying this just to make a point. Sometimes 
when you hear extreme rhetoric, you have to use extreme 
language to make a point so that people can better understand 
that we are at extremes. There is no need to be at these 
extremes.
    Why not talk about corporate welfare? Corporate welfare--
$60 billion is what we were giving corporate institutions to, 
literally, manage a program and take dollars and pass them on 
to recipients--persons who were borrowers. This is not within 
your--the context of what you are talking about today. Quite 
frankly, it is not something that I would have brought up. But 
since we are now going to talk about this, let us put it in its 
proper context. It is corporate welfare.
    Why do we support corporate welfare to this extent, which 
is, literally, a waste of money? Those who talk about 
eliminating waste, fraud, and abuse would support this kind of 
invidious corporate welfare. That is just a--simply a pass-
through. That is all it was--a pass-through that we have 
eliminated. Now we will put some of this money at the Pell 
grants so that we can better educate people.
    Corporate welfare--if corporate welfare is good, then 
welfare for some of the least, the last, and the lost, should 
not be attacked to the extent that it is.
    Now, back to this hearing; and thank you for your 
indulgence.
    Mr. Ervin, I want to give you an opportunity to vindicate 
your statements that you made earlier. My belief is that you 
were not given adequate time to state properly what you--
restate properly what you stated earlier. So, if you would, 
please?
    Mr. Ervin. Well, thank you for that, Mr. Green. I want to 
emphasize--and as I say, I did emphasize it in the written 
statement that I read--that I am not against the profit motive. 
I am simply saying that--as between security and profit, a 
private contractor is more concerned with the latter, needless 
to say. Further, it is not just a question of logic. It is a 
question of experience. The whole reason there is a TSA is 
because we recognized after 9/11 that pre-9/11, contractors 
were putting profit ahead of security.
    The final point I would make is the one that I made just a 
second ago. That is that I think it is telling that we think 
that certain Federal facilities--the White House, DOD, Central 
Intelligence Agency, and the Capitol itself, apparently, are 
important enough that the security guards provided should be 
Federalized. What is the distinction to be drawn between those 
Federal facilities and other Federal facilities?
    I think we have learned--or should have learned, after 9/
11, and after these recent spate of domestic-terrorism attack, 
that all Federal facilities are at least, potentially, at risk.
    Mr. Green. Thank you.
    Because my time is nearly up, let me just summarize 
something and ask for a quick response.
    In the GAO report, you have all of these findings. You 
indicate that none of the responsible parties, in terms of the 
contracts that were awarded--none of these contracts have been 
terminated notwithstanding the findings. It seems to me that if 
we should perform as we normally do in corporate America, and 
adhere to corporate principles consistently, somebody would 
have been fired--meaning a contract would have been terminated.
    GAO--am I correct when I read that no contract was 
terminated notwithstanding findings?
    Mr. Goldstein. Yes, sir. That is our finding; that no 
contract was terminated--even more so, that no action was taken 
against any of the contractors that we----
    Mr. Green. A closing comment would be this: There ought to 
be consistency in your philosophy. If you want corporate 
standards, then let the corporate standards prevail 
consistently. That is what should happen. In corporate America, 
somebody would have been fired.
    So we can't have it both ways--``When it is convenient, let 
us have corporate standards; and when it is inconvenient, then 
let us have some other standard that is, at best, quasi-
corporate.''
    I thank you and I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Texas, Mr. 
Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Director Schenkel, I would like to address my first 
question to you. Let me quote from your testimony: ``We believe 
that we can effectively secure Federal buildings with the 
current mix of Federal staff and highly trained contract 
guards.'' I presume, then, that you don't necessarily think we 
ought to Federalize the entire guard staff.
    Tell me why you think that current mix works--if you could, 
go into a little bit more detail.
    Mr. Schenkel. I can't speculate on whether we should 
Federalize or go with the contracts. But I do believe that the 
clear mission, as I have described earlier, and the 
professional training that meets that mission requirement are 
the two key objectives. They coincide with what Mr. Ervin is 
saying, too. Regardless of who people work for, the standards, 
as Mr. Green just said, have to be established and upheld. I 
think that is the critical----
    Mr. Smith. Whoever does it, it needs----
    Mr. Schenkel. Yes, sir.
    Mr. Smith. Correct.
    Okay. Thank you, Director Schenkel.
    Mr. Ervin, I wanted to follow up on a statement of yours in 
your testimony as well. Let me read two sentences from it. 
``Investigation after investigation, report after report, year 
after year, have documented in detail FPS' apparent inability 
to carry out its most critical mission--protecting Federal 
buildings against the threat of terrorism in the post-9/11 age. 
If other relevant factors are equal, there is no good reason to 
think that merely exchanging a public paycheck for a private 
one will improve guard performance.''
    I happen to agree with that. But I think your underlying 
basis for saying that is that it is possible to improve 
training and oversight without necessarily Federalizing the 
guards. If that is the case, do you want to elaborate on that?
    Mr. Ervin. Well, thank you for that, Mr. Smith.
    I think the answer is it is possible to improve. It is just 
I am skeptical as to whether it would happen, in fact, based on 
experience. You know, we have had this present regime of 
contractors with Federal oversight for a number of years now. 
As I say, and as you know, report after report, investigation 
after investigation, shows that for whatever reason, the 
Federal Government seems incapable of getting the private 
sector to perform optimally.
    Mr. Smith. That they are capable or not----
    Mr. Ervin. Incapable----
    Mr. Smith. Incapable?
    Mr. Ervin [continuing]. Of getting the private sector to 
perform optimally.
    Mr. Smith. But go up on your correction a few minutes ago. 
You don't necessarily think that that is because of the profit 
motive. It is just that that is a fact of life.
    Mr. Ervin. Well, what I am saying is that the profit motive 
drives the contractor motivation, and----
    Mr. Smith. Right. But you don't see anything inherently 
evil in that?
    Mr. Ervin. Of course not; absolutely not.
    But, I mean, the point is, who should be in charge of 
security for Federal facilities?
    Mr. Smith. Right.
    Mr. Ervin. It seems to me that the entity that should be in 
charge of that, that should pay the people, is the entity that 
has, as its primary, sole, motivation, security. That is the 
Federal Government.
    Mr. Smith. Yes, I would say that to some extent. But the 
problem--and this is a longer conversation, probably. The 
reason for the profit motive, and the reason that profit motive 
oftentimes works better than the Government is because it sort 
of increases efficiency, delivery of goods; it doesn't let 
excessive expenses or costs get out of hand--all of which can 
be inimical to the underlying mission of protecting lives and 
keeping buildings safe.
    So I don't maybe think as much as you that the profit 
motive is necessarily going to prevent them from doing their 
job. I think it might actually enhance it.
    When I say ``This is part of a longer discussion,'' I could 
give you other examples. You look at the U.S. Postal Office. 
There are reasons why that, perhaps, should be a Government 
monopoly. But there is no denying the fact that the private 
sector could do the same job less expensively and, perhaps, 
more efficiently.
    Mr. Ervin. But----
    Mr. Smith. I think that is what we are trying to get at 
here--is you might as well look at the overall picture and see 
how we can accomplish the same goal, perhaps, at less cost to 
the taxpayer. But please feel free to respond.
    Mr. Ervin. Well, thank you for that. I would welcome a 
lengthy discussion with you about that privately.
    I guess the only thing I would say is--and I would be very 
brief--is I would distinguish between the mail service and 
security. I think we have seen the effects of the private 
sector on TSA--before the creation of TSA.
    Mr. Smith. Right.
    Mr. Ervin. We are seeing, now, the effects of private 
security with FPS. I think the results speak for themselves.
    Mr. Smith. Right.
    I agree with that--one narrow distinguishing factor. But my 
overall broader point was that oftentimes the private sector 
can do the same job just as well, and perhaps less expensively, 
and perhaps more efficiently. That is my only point.
    Mr. Ervin. Right. I guess my point is that the experience 
shows that that is not the case as far as security is 
concerned.
    Mr. Smith. Oh. Well, now, that, I am not sure is the case. 
I think there are probably other instances--and we have seen 
the mix that we have heard from Director Schenkel--that, 
apparently, the private sector can do it as well, in some 
instances--perhaps in all, if you keep good oversight of the 
private sector--as you need to do with Government employees as 
well.
    Mr. Ervin. Look forward to the discussion, sir.
    Mr. Smith. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    Mr. Schenkel, from the testimony the committee received, it 
indicated that the contracts are going up about 20 percent per 
year, with the private contractors. Have you made an analysis--
or your staff--made an analysis of--why that 20 percent 
increase?
    Mr. Schenkel. Mr. Chairman, we have not seen that 20 
percent increase. Our contract-guard program remains fairly 
constant at just under $800 million a year. That is for 111 
contracts and, I think, it is 55 different contract companies.
    Department of Labor establishes the wage rates in the 
various parts of the country. I am not quite clear where that 
20 percent figure came from, sir.
    Chairman Thompson. I will get it. I will get it to you.
    The Chair now recognizes the gentlelady from California, 
for 5 minutes. Ms. Richardson.
    Mr. Richardson. Thank you, Mr. Chairman.
    All of my questions will be directed to Mr. Schenkel. I 
have got 5 minutes. So we have got to go quick.
    Mr. Schenkel, when the Chairman asked you the question, 
``Would you provide the analysis of the cost of Federalization 
of the guards?'' You kind of looked, but I didn't hear you say 
an affirmative, ``Yes.'' Was that, ``Yes,'' you would provide 
that report?
    Mr. Schenkel. I have handed that to the Department. I 
believe the Department will have to provide that, ma'am.
    Mr. Richardson. What I saw there was the exchange that I 
thought. So are you committing to this committee--you still 
haven't answered the question. Are you going to supply this 
committee a copy of that report?
    Mr. Schenkel. I have to have that through the Department, 
ma'am. I don't have the authority to hand it to you directly.
    Chairman Thompson. Just a minute. I want you to check that, 
Mr. Schenkel, because unless there is something in there over 
and above that is covered, it is a public document. I think you 
ought to check that.
    Mr. Richardson. So will you check that and get back to the 
committee?
    Mr. Schenkel. Yes, ma'am.
    Mr. Richardson. Okay. Thank you.
    I thought I saw that. I wasn't sure.
    Also, sir, the GAO found that the FPS has an inability to 
effectively evaluate their staffing responses. You have a draft 
workforce-staffing model that you intend upon using, that you 
haven't provided to Congress. Is it possible for you to provide 
that as well?
    Mr. Schenkel. That is the staffing model that is under 
review at the Department level, and will be released, as I have 
been told, just prior to the 2012 budget.
    Mr. Richardson. Is it one and the same of the cost 
analysis, or is it something different?
    Mr. Schenkel. No, ma'am. No, ma'am, it is not.
    It is no secret on the cost analysis. The cost analysis 
runs roughly 30 percent higher for Federalizing the same 
workforce that we have----
    Mr. Richardson. Mr. Schenkel, I apologize, but I have now 
got 3 minutes.
    My question is: Are there two different reports? Is there a 
cost-analysis report, and is there a staffing-model report? Are 
they two separate reports?
    Mr. Schenkel. Yes, they would be two separate----
    Mr. Richardson. Okay. So the official request of this 
committee is that you would supply the committee with those two 
reports. As the Chairman mentioned, we believe that that 
information is available to this committee. So, if you would, 
come back forthright--I would think within 7 working days--to 
advise this committee if, in fact, you are able to supply the 
report.
    Mr. Schenkel. Yes, ma'am.
    Mr. Richardson. Okay. Thank you.
    No. 3: It is my understanding that FPS does not sit on 
committees. You can't demand FC tenants to implement 
recommendations. They can refuse things that we want to do. You 
talked about contract issues of--if people aren't doing--you 
know, fulfilling the contract--you don't really feel 
comfortable being able to terminate them.
    Could you supply this to the committee--any recommendations 
that you might have of how we could do business better--that we 
could assist you with in possibly implementing?
    Mr. Schenkel. Yes, ma'am, but the ISC has already taken 
steps in that direction--the Interagency Security Committee. 
They have created a working group with both the GSA and the 
Federal Protective Service as the co-chairs of that group--
reason being is that our challenge is far different from the 
other 350,000 Federal facilities that the Interagency Security 
Committee covers.
    Our 9,000 buildings are the only buildings that have what 
we call a multi-tenant facility--in other words, multiple 
agencies under one roof. So, consequently, that challenge is 
unique unto us.
    Mr. Richardson. So does that working group include the 
concerns that the GAO has brought forward?
    Mr. Schenkel. Yes, ma'am.
    Mr. Richardson. Okay. So can you supply this committee with 
a full list of what those are that you are looking at?
    Mr. Schenkel. Yes, ma'am.
    Mr. Richardson. Okay. Thank you.
    No. 5--I want to talk about the RAMP program. Apparently, 
there are some issues with the RAMP program. Do you intend upon 
implementing that?
    Mr. Schenkel. The Risk Assessment Management Program is not 
only meeting, but exceeding our expectations in many cases. I 
had heard that there were problems with the program early on. 
What I did was I held two town-hall meetings--one in the 
National Capital Region and one in Boston--to find out from the 
inspectors themselves what they thought of the program.
    The program itself is functioning superbly. The challenge 
was the backbone that it was riding on--in other words, the 
infrastructure that had to not only download the information, 
but then pass it through our Toughbook computers. That has been 
significantly rectified as of yesterday. Whereas things used to 
take hours to download, it now takes minutes. Things that took 
minutes now take seconds.
    Mr. Richardson. Well, Mr. Schenkel, according to the report 
that we have in front of us, in addition to that problem, you 
also have a problem of 11 different regions using different 
processes for managing, collecting, and reporting of contract-
guard information.
    So, Mr. Goldstein has pointed out several issues.
    Mr. Goldstein, have you been updated with what Mr. Schenkel 
is saying? Do you feel satisfied that the RAMP program can 
work?
    Mr. Goldstein. We don't know that yet, ma'am. We are about 
to start an audit of the RAMP program, which this committee has 
requested. So we will be getting back to the committee with 
that information in the future.
    Mr. Richardson. Okay. What I would say to you, Mr. 
Schenkel, is that we cannot afford, in DHS--we have had way too 
many programs that we have paid millions and millions of 
dollars for that have not worked; and so it is critical, if we 
are going to make this investment, that it does.
    Finally, my last question I have--Mr. Chairman, would you 
give me an additional----
    Chairman Thompson. Yes.
    Mr. Richardson. Thank you.
    Chairman Thompson. Yes.
    Mr. Richardson. It is my understanding, according to the 
GAO, that you--out of 15,000 contract guards, 8,600--you have 
not been able to verify their certification-and-training 
status. Is that still true?
    Mr. Schenkel. That is not correct, ma'am. We now have 
14,600-plus guards that have verified certifications in our 
RAMP system.
    Mr. Richardson. So you are saying you are almost at 100 
percent?
    Mr. Schenkel. We are 100 percent for what has put in there. 
That 15,000 figure is just the figure that--that mans the 
posts, or has historically manned the posts. We operate on 
guard posts. We have 6,250 guard posts. How the contractors 
staff those, whether they use two 4-hour shifts or one 8-hour 
shift is up to the contractor. So we are confident that the 
guards' standing posts meet the certification requirements.
    Mr. Richardson. Okay. I look forward to further information 
on that as well.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Mr. Goldstein, you just heard Mr. Schenkel's response. I 
asked a question earlier about that same issue and was told 
that they had some 6,000 people out here who can't--we can't 
verify the credentialing. You remember that?
    Mr. Goldstein. Yes, sir, I do.
    Chairman Thompson. No, Mr. Schenkel just said that that 
number must be about 18--the number 18, given his numbers that 
he just quoted to the committee.
    Mr. Goldstein. He said the number was about 14,000 and some 
odd, out of the 15,000--he believes have now been certified. 
Based on information that we have--and we discussed this 
recently with FPS--that wasn't the case. We will happily look 
at that again to be sure that that is the case.
    I would add that we do have, and have had for some time, 
longstanding concerns, though, about the information that was 
going to be put into the RAMP system itself, because a lot of 
that information was based on old data. So we need to, as part 
of the work that we are doing on RAMP in the coming months for 
the committee--we will go back and be sure that the kinds of 
information put into RAMP are accurate.
    Chairman Thompson. Yes. One of the reasons we asked is this 
notion of operational or fully operational--I don't want to get 
into how you define one versus the other. But the committee 
would expect a program to be up and running to its maximum 
capacity, and not just up, so to speak. We have a history of 
that.
    But, Mr. Schenkel, I do want to say, again, a number of 
Members have raised a question about how the certification, the 
training, the retention of records, and the documentation of 
contract guards--that is a serious issue, because so much of 
how you test the system is based on what records you have. If 
the records are incomplete, then we have a problem. From what I 
have heard, up until your earlier response to Ms. Richardson's 
question, your testimonies to the committee is that those 
incomplete records are no longer incomplete. Is that correct?
    Mr. Schenkel. That is correct, sir. We have taken great 
pains to ensure the verification and certification of our 
records to include implementing additional policies, where we 
go do a 120 percent inspection of the contractors' records, as 
well as the inspections--and when we do the guard-post 
inspections either through Operation Shield or just regular 
post inspections.
    The system that we have developed operates on a benefit of 
the Government, if you will. It is the responsibility of the 
contractor to get the update and current certification 
information into our system. If, in fact, that individual does 
not, that individual will not be able to stand post. It is a 
go/no-go system at this point.
    Chairman Thompson. Mr. Goldstein, how old is the report you 
are reporting on to this committee?
    Mr. Goldstein. The report is--the one that was issued 
yesterday--some of the material, of course, was preliminary. 
However, when we put this report out, we just, several weeks 
ago, sat down with FPS and went through every single fact in 
that report and asked them to verify them. So as of a couple of 
weeks ago, it was our understanding that this information was 
still accurate.
    Chairman Thompson. So, Mr. Schenkel, you see we have a 
issue of GAO reporting to us that there is significant issues 
relative to training and the reports. Your testimony is, within 
this short period of time, it was corrected. I just want us to 
be sure that we are getting accurate testimony before this 
committee.
    Mr. Schenkel. Mr. Chairman, I will be more than happy to 
have someone come and give you a personal demonstration of the 
Risk Assessment Management Program, which includes the guard 
certification. I think you will be pleased.
    Chairman Thompson. Mr. Goldstein, would you accept that 
invitation to attend that meeting?
    Mr. Goldstein. Of course.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Louisiana for 5 
minutes, Mr. Cao.
    Mr. Cao. Thank you, Mr. Chairman.
    My questions are directed at Mr. Ervin.
    Mr. Ervin, I find somewhat of a discrepancy in your 
statement. On the one hand, you are saying that a Federal 
agency has a problem of overseeing a number of private 
contractors, in one statement. But, then, at the very next 
statement, now you are saying that a Federal agency would be 
able to have a better--would do a better job of overseeing 
potentially thousands of people.
    So how, on the one hand, are you saying a Federal agency 
has problems looking over a few number of people and, now, 
doing a better job of overseeing thousands of people?
    Mr. Ervin. Right.
    Mr. Cao, actually, there is no discrepancy. What I am 
saying is a number of things. First of all, I have made it 
clear that Federalization, in and of itself, is not a panacea. 
Implicit in my recommendation that there be Federalization is 
the notion that there be adequate supervision at the Federal 
level. We don't have that now in the private context. We would 
need to have that in the Federal context for Federalization to 
work.
    But the point is that we are not talking about a 
significantly larger number of people. In theory, the very same 
number of private guards that we have now--15,000--could be 
Federalized.
    Mr. Cao. What is the first thing that, if we were to 
implement what you just say--to oversee--you are saying that, 
right now, these Federal agencies--does not have the system of 
oversight, as you just mentioned. If we were to implement the 
system of oversight that you propose, over the private 
contractors, with the same result, would we get the same 
results?
    Mr. Ervin. We could get the same result if we don't do it 
properly. That is why I stressed that the TSA experience----
    Mr. Cao. But if we were to do it properly, then we would 
get good results.
    Mr. Ervin. We would likely, yes, because, at the end of the 
day, it seems to me what matters a lot, and, perhaps, matters 
most----
    Mr. Cao. So it seems to me that the problem is not in the 
private--at least, the private contractors are not doing its 
job. The problem seems to me that we lack, at the Federal 
level, of--a system of overseeing these people, as we will lack 
a system of overseeing the Federalized employees.
    Mr. Ervin. With respect, sir, I don't think it is a 
question of a system of oversight. The issue here isn't a 
system. It is a question of: What is the primary motivator of 
the entity that is employing the guard force?
    If it is a private contractor, that primary motivator is 
profit. Therefore, there is an incentive built in to cut 
corners, not to pay people well; not to train them properly. 
Conversely, if the primary motivator is security, which, 
presumably, would be the primary motivator of the Federal 
Government, then we would likely get the kind of----
    Mr. Cao. Now, you seem to be praising the TSA in your 
speeches and in your examples. I happen to have a lot of 
experience with the TSA. I fly in and out of the District of 
Columbia every week. I fly all over the country all year round. 
I have extensive experience with the TSA. My experience with 
the TSA has not been positive.
    I find the employees to be rude. I find the employees to be 
inefficient. I find a lot of problems with TSA. At the same 
time, I also have had extensive experience with a private 
security firm in New Orleans. It is called the New Orleans 
Private Patrol. In comparing employees of the New Orleans 
Private Patrol with the employees of TSA, I find the New 
Orleans Private Patrol employees are a lot more professional. 
They greet and treat people with much more respect.
    So how can you explain to me the differences in demeanor?
    Mr. Ervin. Right.
    Well, a couple of things, sir--I have lots of experience 
with the TSA also. I was the first inspector general at the 
Department of Homeland Security, just right after the 
Federalization of TSA. I am not really talking about a question 
of demeanor and behavior. I say in my statement that there is a 
lot of work that----
    Mr. Cao. No, but it goes into their----
    Mr. Ervin. But if I could just----
    Mr. Cao [continuing]. Their effectiveness as being--in 
doing their security work.
    Mr. Ervin. I think the main point, sir, that I would stress 
to you is that we saw what the performance was when there was a 
privatized airport-screener workforce on 9/11. The reason we 
have TSA today is because of the recognition on the part of the 
Federal Government, of which the Congress is a part, obviously, 
that, left to their own devices, contractors will cut corners. 
That is why we have Federal----
    Mr. Cao. Could I ask you a very quick question? Do you have 
the number of Federal dollars that goes into the TSA now, 
versus the number of Federal dollars that went into employing 
the Federal firms to provide security for----
    Mr. Ervin. I don't have the exact figures. I could 
certainly find them.
    If the point that you are making is that Federalization can 
be more costly than a private system, I would concede that. I 
say at the conclusion of my statement that Federalizing 
security would not be quick, it would not be easy, and it would 
not be cheap. But security is not the thing that should be done 
on the cheap. I thought--I think we saw the effects of cheap 
security before 9/11. As I say, that is why we have TSA.
    Final point I would make is--and there has been no response 
to my repeatedly saying, ``There is presumably a reason why we 
have a Federal guard force for the White House, for DOD, for 
the Central Intelligence Agency, and for you and your 
colleagues here in the Capitol.'' I think the reason for that 
is the recognition that properly supervised, properly 
resourced, properly trained Federal employees provide better 
security. That is all I am suggesting for FPS.
    Mr. Cao. Well, I have issues with your recent statement 
also, but I see that I am out of time.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentlelady from Arizona, Mrs. Kirkpatrick, for 5 
minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    I want to thank the panelists for appearing today.
    I represent a huge rural district in Arizona. So my first 
question is for Mr. Goldstein.
    The GAO report reports that guard posts at rural Federal 
facilities are being neglected. This is a particular problem 
for a State like Arizona, which is mostly rural, yet contains 
the busiest trafficking routes from Mexico and Latin America, 
and also has been home to dangerous extremists, including the 
person directly responsible for the bomb in Oklahoma City.
    Mr. Goldstein, can you elaborate on this assessment of 
rural facilities in your report?
    Mr. Goldstein. I think, ma'am, it is mainly a question of 
resources for FPS. There, you have a limited number of officers 
who oversee all of these buildings across the United States. 
The regions that they have can stretch some distance. When we 
were out in the field on this work, we talked to many 
inspectors who said that they rarely got to visit the 
facilities they had--say, if they were in Boston, they rarely, 
if ever, got to Cape Cod, for instance--maybe once a year--to 
look at the Federal courthouse or other buildings in those 
areas. So it is a difficulty that they face geographically, and 
from a resource perspective.
    We also found that most of the work that was being done to 
oversee these properties, whether it was inspection of the 
guard forces or other kinds of activities, were occurring only 
during business hours during--in 9 to 5, which, of course, are 
not the hours that terrorists necessarily keep--or other 
perpetrators.
    We have recognized that FPS has, in recent months, tried to 
solve this problem which they face, in part, by having tenant-
agency representatives help them out when inspectors can't get 
there. They have put together a new program which would use 
people at the agencies themselves to help overseeing guard 
forces where they can't get there. But we have some questions 
about how effective that program can be, since these are, 
frankly, mainly lay people who are being asked to fill these 
responsibilities. I am sure Mr. Schenkel could give you more 
information about that.
    Mrs. Kirkpatrick. Do you think those difficulties make 
those facilities more at risk?
    Mr. Goldstein. I think it is hard for me to say whether 
they are more at risk. A terrorist or someone who is going to 
perpetrate a crime may or may not try to attack a level-four 
building in a major city for a symbol, or may try what would be 
called a ``softer target.'' It is hard to know what they would 
try to focus on. It is based on the risk assessments that FPS 
and other agencies do. But, by and large, the majority of the 
Federal portion of FPS is located in, you know, major 
metropolitan regions. There is no question about that.
    Mrs. Kirkpatrick. Mr. Schenkel, what are you doing to 
improve the situation regarding the security of rural 
facilities?
    Mr. Schenkel. When we started this testimony, we mentioned 
that we came from 11 different police departments, basically, 
with 11 different practices, both business and operational. 
What we have done is standardize the practices and ensured that 
everyone gets their just dessert, if you will, by implementing 
policies. There were no policies prior to 2008 that even 
dictated how many times a guard post was to be inspected.
    Mr. Goldstein is correct. It is a challenge. It is a 
challenge, geographically, in many areas, to affect those 
guard-post inspections. Consequently, we have incorporated 
some--what we call ``Agency technical representation,'' where 
we train an individual from the respective agency that resides 
in that facility to conduct observations, if you will, of the 
performance of the contract guards in that facility.
    Mrs. Kirkpatrick. Thank you. It still is a concern of mine. 
Maybe, we will work further on that.
    My next question is for Mr. Ervin.
    I understand that FPS plans to shift some of the oversight 
of contractors to the tenants' facilities they are guarding. Do 
you feel that these agencies have the appropriate experience 
and expertise to successfully monitor the performance of 
security operations, and can we expect officers with no 
security background to do this properly?
    Mr. Ervin. No, ma'am. I don't think it is logical to think 
that an agency that doesn't have any background in security can 
properly manage the guard force.
    Mrs. Kirkpatrick. If the tenants in the building can 
oversee the security contractors, as well as--well, what you 
are saying is they can't.
    Mr. Ervin. Unless they have security experience. In fact, 
most of these agencies don't.
    Mrs. Kirkpatrick. Well, I guess I wonder why we should even 
have FPS.
    Mr. Ervin. Well, we certainly need guards for Federal 
facilities. I think the issue is whether those guards should be 
Federalized or privatized. I am arguing that they should be 
Federalized for the reasons I have said.
    Mrs. Kirkpatrick. Okay. Thank you.
    I yield back my time.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentleman from Pennsylvania 
for 5 minutes, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    My good friend, who is not here right now, Mr. Green, had 
mentioned that he feels that better knowing that--he felt 
better knowing that Federalized law enforcement has arrest 
authority. I would like to clarify that the Federalized TSA 
workforce has no such arrest authority. Like the FPS, they can 
detain only.
    Also, I just wanted to comment, too, about the security 
contractors. You know, the White House is protected, as we 
know, by the Secret Service, and has been for 100 years. But 
contractors are responsible for security systems at the White 
House. The Capitol Police are a function of a special nature 
associated with a separate branch of Government, the 
legislative branch. However, contractors have designed and 
built many of the security capabilities in this Capitol 
complex, you know?
    I don't think the contractors who provide security 
assistance to the White House and the Capitol are cutting 
corners on security just to save a buck. But I just think we 
need to be very clear about that. We have security contractors 
serving overseas in Iraq and Afghanistan as well. So I think we 
should be very clear about how we utilize private contractors 
in and around the White House and the Capitol, and elsewhere in 
the Federal system.
    Mr. Ervin, my question is this: In the testimony before 
this committee, on November 14, 2007, as a DHS inspector 
general, you testified with regard to the TSA, that, ``The sad 
fact is that for all the dollars and attention that has been 
focused on screener performance since 9/11, study after study 
shows that it is just as easy today to sneak deadly weapons 
past screeners as it was on 9/11.''
    To address this, you recommended extensive training and 
frequent re-training of screeners under simulated real-world 
conditions. If extensive training and re-training of screeners 
would help TSA employees, why won't it help the FPS guard 
force?
    Mr. Ervin. Mr. Dent, if you saw my statement, I talk 
specifically about that. I acknowledge that in my time as DHS 
inspector general, I noted a number of shortcomings and flaws 
in TSA as a Federalized workforce. I went on to say, though, 
that the reason for that is that TSA hasn't properly been 
established as a Federal agency. There isn't adequate pay. 
There aren't adequate promotion opportunities, still. There 
isn't adequate training. There isn't the adequate deployment of 
technology. There isn't the requisite accountability and 
oversight that there should be. So there is a right way to 
Federalize, and there is a wrong way to Federalize. Needless to 
say, here, with regard to FPS, I am arguing that Federalization 
take place the right way.
    Mr. Dent. So, in your role as the DHS inspector general, do 
you recall how much it costs the Federal Government annually to 
Federalize the TSA screeners--millions, billions?
    Mr. Ervin. I don't remember the figure, but, certainly, it 
was expensive. Federalizing FPS would likewise be expensive. I 
am sure it would be much more expensive than the present 
private system. My point is, though, that security can't be 
done on the cheap.
    Mr. Dent. While I appreciate your testimony and your being 
here today, I need a little more than logic and experience to 
justify spending billions of taxpayers' dollars to create 
another 15,000 Federal jobs. You know? Just, you know--what 
empirical data do you have that supports your conclusion that 
Federalized FPS screeners would actually improve security----
    Mr. Ervin. Right.
    Mr. Dent [continuing] At Federal facilities?
    Mr. Ervin. Well, I guess I would say a couple of things.
    First, I don't know what there could be, other than logic 
and experience. Secondly, experience is empirical. What I am 
suggesting is that the experience of a privatized airport-
screener workforce before 9/11 shows that those screeners 
failed. That is why we have TSA today.
    I don't think anybody would suggest that we turn over the 
security-guard function. I think you cited equipment. No one 
would suggest that we turn over the guard function at the White 
House, at DOD, at the CIA, here at the Capitol, to the private 
sector. I don't think you are suggesting that. The reason for 
that is the recognition that these facilities are so important, 
so critical, that they ought to be guarded by the--by the 
Federal Government.
    Mr. Dent. The only thing I would say is, before 9/11, there 
were a lot of failures that led to the attacks. You know? I 
mean, we can blame private contractors, private screeners. But 
there was intelligence failures. There were all sorts of 
reasons why we failed to connect the dots. I think we would be 
overly simplistic to suggest it was just the private screeners 
that failed on 9/11.
    According to the GAO, TSA screeners have never caught GAO 
during a covert testing exercise. Why, then, would you 
recommend Federalizing the entire contract-guard staff based on 
similar GAO studies conducted on FPS contractors, when there 
appears to be no additional benefit to having a Federalized 
guard staff?
    Mr. Ervin. Again, Mr. Dent, I talked about that in my 
statement. The point is that TSA is still a work in progress. 
It is not properly resourced. There isn't adequate training. 
There isn't adequate supervision.
    My argument, though, is that if there were those things, 
TSA would be a more effective agency than it is, and it would 
be far more effective, and is more effective today, by the way, 
than the private system before 9/11.
    Mr. Dent. Thank you.
    I yield back. My time has expired.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, the GAO report is pretty conclusive: In many 
areas, there are no standardized policies for the FPS.
    I associate myself with your statement in the Post article 
that, for most people, ``The contract guards are the face of 
the Federal Protective Service. Unfortunately, that face has 
some disturbing features,'' and it does.
    We changed, I think, the TSA--having been on this committee 
from its very beginning--because we thought rent-a-cop didn't 
work for a lot of reasons. I think the main reason--and I know 
he is on the second panel--David Wright, who is the president 
of the national FPS union--but he said that, quote--if I might 
quote him--``The risk is too high to rely on guards who are 
guided by companies whose top priority is to increase profit to 
the shareholder.''
    So, Mr. Chairman, I think this is an important hearing, to 
protect not only the infrastructure of Federal buildings, but 
to protect Federal employees. In February, we saw an individual 
with an ideological bent, Joseph Andrew Stack--he flew a plane 
directly into the Federal building in Austin, Texas. He killed 
an IRS employee, injuring others, and causing massive damage.
    In January, several individuals led by James O'Keefe 
fraudulently entered Senator Mary Landrieu's New Orleans office 
dressed as utilities employees and allegedly attempted to 
tamper with their phone system.
    Then, most recently, numerous Congressional district 
offices have been vandalized and threatened with attack during 
the debate on our favorite subject, health care.
    I worry that almost 15 years to the day, April 19, 1995, of 
the attack on the Alfred Murrah Federal Building in downtown 
Oklahoma City, which killed 168 Americans, we still don't take 
the threat of domestic terrorism nearly serious enough. I have 
talked about this with the Chairman. I think that this is 
something that we need to look into.
    We almost started to look into this at the beginning of 
last year--remember, Mr. Chairman, in February--but all hell 
broke loose because the new appointee as director of Homeland 
Security happened to mention the growing evidence of growing 
domestic groups who seek to destroy the very fiber of this 
democracy; and that they are no less terrorists than the 
murderers of 9/11, by any stretch of the imagination.
    My office in Patterson, New Jersey, is located in a Federal 
building, which also houses the IRS, the Social Security 
Administration, a Federal probation office, a naval recruitment 
office--all of which could, individually, be potential targets 
of an attack.
    So, Mr. Goldstein, let me ask you this: Does the current 
system of protection for Federal buildings make sense to you?
    Mr. Goldstein. We have not looked at the question of 
Federalization yet. We have a report that we have for this 
committee that we are about to start working on, looking at a 
variety of alternatives. Obviously, FPS has done so. We have 
not done that work yet. We are about to start it. So it is just 
too early for me to answer that question. There are clearly 
alternatives to the current scenario. We are looking forward to 
digging into that and getting some empirical evidence.
    Mr. Pascrell. Mr. Goldstein, we have the Federal Protective 
Services--that is under Department of Homeland Security, 
correct?
    Mr. Goldstein. Yes, sir.
    Mr. Pascrell. But the security contractors are private, and 
the buildings themselves are operated by the GSA--the General 
Service Administration?
    Mr. Goldstein. That is correct.
    Mr. Pascrell. Is that correct so far?
    Mr. Goldstein. Yes, sir.
    Mr. Pascrell. Which means that the DHS can make homeland-
security recommendations, as they have done, and the GSA can 
ignore them if they think it is too much work.
    Mr. Goldstein. It is a little bit more complicated, in 
fact, than that, because the buildings are actually run--the 
security of them are run by security committees that the 
tenants sit on, and actually, in large part, control. Now, the 
ISC--the Interagency Security Committee--is making some 
suggestions and changes about how those committees ought to 
work.
    But, at the moment--we have testified a number of times and 
have in a number of our reports that that system does not work 
well. It is broken. It is broken when you have three different 
entities, one of whom is represented by lay people with no 
security background at all, making decisions and actually being 
able to thwart security recommendations. It is a problem.
    Mr. Pascrell. Well, the environment is--Mr. Goldstein, the 
environment has kind of changed over the past 10 years.
    Mr. Goldstein. Yes, sir.
    Mr. Pascrell. I think that, regardless of where you stand 
on the political spectrum, it has become a lot more dangerous--
a lot more dangerous. So we see weapons coming into Federal 
buildings through these private contractors who are there. Many 
of them do a fantastic job. Many of them are not trained 
properly.
    You admit this and--and responding in your overview. I 
think that this is very serious business.
    I don't sense any urgency about this. When I see what has 
happened to my fellow mates in different parts of the country, 
I think we should be concerned. The life of a Congressman is no 
more valuable than the life of an ordinary citizen. But the 
fact is that it is no less than an ordinary citizen.
    I need attention to these things--very important and very 
significant. Your report, I think, sheds some light on this.
    Whenever my office has brought up these concerns to the 
GSA, all we have gotten is finger-pointing to other agencies, 
which bears out what you just said a few moments ago.
    Mr. Chairman, thank you for having this hearing today.
    Thank you.
    Chairman Thompson. Thank you very much.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Austria.
    Mr. Austria. Thank you, Mr. Chairman.
    Thank you to our committee--our panel for being here today 
and testifying. I know many of my colleagues have expressed 
concerns about 15,000 jobs of private contractors going to the 
Federal Government. I think the No. 1 issue is safety and 
security of the Federal buildings. We all agree on that.
    But, Mr. Ervin, let me kind of follow up a little bit on 
what Mr. Cao was saying earlier. You made a comment that there 
is incentives for shortcuts right now, for private contractors. 
Safety and security is the most important issue here. Do you 
have evidence of private contractors taking shortcuts? If so, 
you know, what corrections or actions were taken to correct 
those?
    Mr. Ervin. Right. Well, the evidence that I have, sir, is 
the evidence that we have in the GAO report, which is just the 
latest of a number of GAO reports over the years that have 
shown such problems. I think there is a reason why----
    Mr. Austria. What actions were taken to correct those?
    Mr. Ervin. Well, I think Mr. Schenkel has described what 
FPS has done to date to try to address it, and I applaud him 
for it. I also want to underscore that, as a number of Members 
have pointed out, you know, the vast majority of FPS workers 
are doing their very best. But their very best, under these 
circumstances, is obviously not good enough. So that is why I 
am urging Federalization.
    Mr. Austria. I guess my next question is: How much of that 
would you put towards--you know, and I don't know if you know 
the answer to this--not having the proper training or 
certification----
    Mr. Ervin. Yes, well, I can't quantify it, certainly. But 
there is no question but--that the lack of adequate training is 
a key part of it. So is the lack of adequate supervision. That 
has to happen whether we are talking about a private system or 
a Federal system. The question is: Which system is likely, 
overall, to produce a better result? I am suggesting, as I say, 
based on logic and experience, that the Federal system is 
likely to do that.
    Mr. Austria. Director Schenkel, let me ask you a question. 
You mentioned that there is right now--was it 5,200 guard posts 
that--that you were aware of?
    Mr. Schenkel. Sixty-two-fifty, sir.
    Mr. Austria. Sixty-two-fifty.
    How many do you expect the conductor--will that number 
increase in 2010, or remain approximately the same?
    Mr. Schenkel. Actually, they will probably increase.
    Case in point: We just increased by 1,000 temporary posts 
just for the IRS.
    Mr. Austria. Okay.
    Director, let me go back to--I know Mr. King talked about, 
and you discussed, the cost-benefit feasibility of this--a 
cost-benefit analysis. I believe you mentioned that--in your 
testimony--that you have--we have been working on this since 
2003--approximately that you have three--DHS has been working 
on the transition--FPS, from different regional organizations, 
into one agency, as well as establishing a systematic approach 
to developing standardized policies and identifying problems.
    What I am trying to get at is the pros and cons of 
feasibility. Is it feasible to begin the process of 
Federalization while FPS is still transitioning into this new 
model, even though we haven't seen, you know, any end result to 
it or--nor had the opportunity to assess whether the model 
works or doesn't work?
    Mr. Schenkel. The consistency and standardization of the 
organization is the priority. We have to have a baseline and 
stringent standards that we can hold people to, whether they be 
contractor, or whether it be Federal. We have made great 
strides in that in the last couple of years. We have 
standardized. We have published over 35 policies for the first 
time that are National policies and that have direct National 
impact.
    Additionally, this new program that we have rolled out--the 
Risk Assessment Management Program--will further standardize 
many of our projects and programs. So the consistency of the 
individual or the----
    Mr. Austria. I guess my question is on the cost-benefit 
analysis--is it feasible during this transition time period 
when we haven't seen that model yet?
    Mr. Schenkel. Well, I can't speculate on that. But, as I 
said earlier, the cost runs roughly 30 percent more for a 
straight transition.
    Mr. Austria. Director, are there any other options besides 
Federalization of the entire contract-guard staff that is being 
considered as another option to ensure safety and security of 
Federal buildings?
    Mr. Schenkel. We have explored several options, to include 
increasing the number of our Federal officers, which we think 
is a very positive move in the right direction, as far as 
oversight and consistency and standardization.
    Mr. Austria. Well, are you able to talk about any of the 
specifics as far as other options that are been--have been 
looked at?
    Mr. Schenkel. I am not quite clear----
    Mr. Austria. When you are looking at other options, what--a 
little more detail----
    Mr. Schenkel. Oh. Well, what we did is we looked at the 
option of whether we Federalize the entire force or portions of 
the force, or do it by risk facilities, et cetera. I think our 
analysis is still under review at this point. However, we can 
go to just about any option that either Congress or the 
Department would desire.
    Mr. Austria. Mr. Chairman, one last question, if I may: If 
you could, help me understand--how do FPS inspectors currently 
conduct risk assessments, you know, if RAMP is currently not 
operational? What is in place right now to conduct risk 
assessments?
    Mr. Schenkel. Sir, risk-assessment management regarding 
RAMP is operational now. It was operational from the start of 
the backbone, the infrastructure, that it rode on. Basically, 
the pipe, if you will, was not serving it adequately. We made 
corrective actions. It is functioning extremely well.
    The release was yesterday. So it is not a question that 
someone would have known this prior to. But the functionality 
has worked from the very beginning. I confirmed that with the 
inspectors in the field. It is a transition period. I believe 
in my last testimony, in November, I said, ``It will be a year 
to 18 months before we get all the bugs out.'' However, at this 
point, it is functioning better than we expected.
    Mr. Austria. That report was released yesterday?
    Mr. Schenkel. That the release of the functionality--the 
backbone--increased its speed. That was the challenge for the 
Risk Assessment Management Program.
    Mr. Austria. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I thank our first panel of witnesses for their valuable 
testimony, and the Members for their questions.
    Before being dismissed, I would remind our first panel of 
witnesses that the Members of the committee may have additional 
questions for you. We will ask you to respond expeditiously in 
writing to those questions. There have already been some 
commitments in terms of Mr. Schenkel getting back to the 
committee on a number of items.
    We want to thank you again, witnesses. You have been very 
kind and generous with your responses.
    I would like to ask the clerk now to prepare the witness 
table for our second panel of witnesses.
    I now welcome our second panel of witnesses.
    Our first witness is Mr. David Wright, President of 
American Federation of Government Employees Local 918. Mr. 
Wright is a 23-year veteran of the Federal Protective Service.
    Welcome, Mr. Wright.
    The final witness on the panel is Mr. Stephen Amitay. He is 
the Federal legislative counsel for the National Association of 
Security Companies, the Nation's largest trade association for 
security companies. Welcome, Mr. Amitay.
    We thank our witnesses for being here today. Without 
objection, the witnesses' full statement, and a statement 
provided to the committee by the National Treasury Employees 
Union will be inserted into the record.
    [The information follows:]
 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                             April 14, 2010
    Chairman Thompson, Ranking Member King, and distinguished Members 
of the committee, I would like to thank you for allowing me to provide 
comments on whether Federalization of contract security guards at the 
Federal Protective Service (FPS) would increase protection at Federal 
facilities. As President of the National Treasury Employees Union 
(NTEU), I have the honor of representing over 150,000 Federal workers 
in 31 Federal agencies and departments.
    Mr. Chairman, recent events including the February 18 attack on IRS 
offices in Austin, Texas, and shootings at a Las Vegas Federal 
courthouse and the Pentagon have once again raised concerns about the 
vulnerability of Federal buildings and the safety and security of 
Federal employees who work in them around the country.
    These attacks, in which two Federal employees were killed and 
several others were seriously injured, serves as a grim reminder of the 
great risk that Federal employees face each and every day in service to 
this country. They also have further heightened on-going concerns by 
many Federal employees that current safety and security standards at 
many Federal facilities are insufficient.
                       federal protective service
    Mr. Chairman, as you know, the responsibility for ensuring the 
physical safety of Federal employees who work in roughly 9,000 
Federally-owned and leased facilities is given to the Federal 
Protective Service (FPS), within the Department of Homeland Security. 
Part of that responsibility also includes ensuring the security of U.S. 
citizens who visit many of the Federal workplaces. On any given day, 
there can be well over 1 million people who are tenants of, and 
visitors to, Federal worksites Nation-wide.
    Unfortunately, recent reports by the Government Accountability 
Office (GAO), and numerous conversations with Federal employees 
represented by NTEU raise concerns that Government employees and 
members of the public are not receiving the proper level of protection 
from the FPS. In particular, NTEU believes that inadequate funding, 
staffing, and training at the FPS, as well as an over-reliance on 
outside contractors, have severely hampered its ability to carry out 
its core missions to protect facilities, to complete building security 
assessments in a timely and professional manner, and to monitor and 
oversee contract guards.
                          inadequate staffing
    According to the GAO, while the FPS workforce has decreased by 
roughly 15 percent from 1,400 employees in fiscal year 2004 to about 
1,200 employees at the end of fiscal year 2009, the contract guard 
force has tripled from 5,000 to 15,000 over this same period. NTEU 
believes these drastic cuts to the FPS workforce and explosion in the 
number of contract security guards have led directly to shortfalls in 
contract guard management, performance, and has seriously impeded FPS' 
ability to ensure a safe environment in which Federal agencies can 
conduct their business.
    While we understand that FPS has met a Congressionally-mandated 
staffing level of 1,200 employees, 900 of whom are required to be full-
time law enforcement professionals, NTEU remains concerned that this 
number falls far short of the number of Federal law enforcement 
officers necessary to secure roughly 9,000 Federal buildings and 
maintain proper oversight of the large contract guard workforce.
    That is why we were disappointed to see that the administration's 
budget request for fiscal year 2011 includes no additional funding for 
the FPS above the fiscal year 2010 level and proposes eliminating the 
minimum staffing standards previously established by Congress.
            overreliance on use of contract security guards
    In addition to inadequate staffing and funding, NTEU is greatly 
concerned that FPS' overreliance on the use of contract security guards 
has severely hampered its ability to adequately protect Federal 
facilities. Of particular concern is a 2009 GAO investigation of the 
FPS which identified numerous concerns with FPS' use of contract 
security guards, including that:
  <bullet> FPS does not fully ensure that its contract security guards 
        have the training and certifications required to secure Federal 
        facilities;
  <bullet> FPS does not have a completely reliable system for 
        monitoring and verifying contract guard training and 
        certification requirements;
  <bullet> FPS does not have specific National guidance on when and how 
        contract guard inspections should be performed; and
  <bullet> FPS inspections of contract security guard posts at Federal 
        facilities are inconsistent, and the quality of the inspections 
        vary across FPS regions.
    Additionally, GAO's investigation identified substantial security 
vulnerabilities related to FPS's guard program, including instances 
where explosive materials were able to successfully pass undetected 
through FPS-monitored security checkpoints.
    FPS officials have admitted there are serious problems with the use 
of contract security guards and that with limited law enforcement 
personnel, the agency is reduced to serving a reactive role, rather 
than a proactive force patrolling Federal buildings and preventing 
criminal acts. Currently, the majority of contract guards are stationed 
at fixed posts, which they are not permitted to leave, and they do not 
have arrest authority. FPS has also reduced the hours of operation for 
providing law enforcement services at many Federal buildings, resulting 
in a lack of coverage when employees are coming and going, and during 
weekend hours.
    Mr. Chairman, it is clear that FPS' excessive reliance on the use 
of outside contractors, part of a larger Government-wide trend under 
the previous administration, has eroded their ability to carry out its 
core mission of protecting Federal facilities and effectively 
monitoring its contract security guard workforce.
                  in-sourcing contract guard positions
    Mr. Chairman, in light of the many problems associated with FPS' 
continuing use and overreliance on its more than 15,000 contract 
security workforce, NTEU strongly believes that Congress should 
consider in-sourcing contract guard positions at the roughly 1,500 
Security Level III and IV high-risk facilities located around the 
country. Replacing contract guards who lack law enforcement authority 
at these facilities with Federal Police Officers that possess the full 
authority and training to perform traditional police functions, and 
restricting contract guards to solely providing monitoring functions at 
lower risk facilities, will ensure FPS is better able to protect 
Federal facilities and the employees within them.
    Mr. Chairman, the importance of providing adequate security at 
Federal buildings is of great concern to NTEU and our members who have 
repeatedly voiced their concerns about the safety of their workplaces, 
their own personal safety and that of the visiting public. NTEU 
strongly believes that by providing FPS with increased staffing and 
funding and addressing their overreliance on contract security workers 
we can ensure that they are able to carry out their mission of securing 
Federal buildings and ensuring the safety of the thousands of Federal 
employees they house daily.
      federalization of the transportation security administration
    Mr. Chairman, as stated previously, NTEU believes FPS' excessive 
use of contract security guards has jeopardized its ability to protect 
Federal facilities and serves as a warning to other agencies as to the 
danger of an overreliance on the use of private contractors. Indeed, 
one look no further than the problems associated with the 
Federalization of the Transportation Security Administration (TSA) to 
see how a reliance on private contractors can hamper an agency's 
ability to carry out its mission.
    After the 9/11 terrorist attacks, the U.S. Government sought to 
assure its citizens by changing the security screening programs at the 
Nation's airports. Legislation was passed to create a new agency, the 
Transportation Security Administration, and to ``Federalize'' the 
screeners at the airports. That legislation also allowed TSA to utilize 
the FAA's acquisition system as its own. It was exempt from complying 
with the FAR (Federal Acquisition Regulations). Contracts were let with 
little or no data on what would be required or what the cost would be. 
For instance, in February 2002, TSA awarded a contract to NCS Pearson 
Inc. to test, interview, fingerprint, medically evaluate and pre-
certify candidates for the Federal screening jobs. The original 
contract was for $104 million. In less than a year, the contract was 
costing $741 million. The contract let for airport bomb-detection 
machines ballooned from $508 million to $1.2 billion. In a series of 
Washington Post articles in 2005, the TSA employee managing the 
contract for a state-of-the-art computer network for TSA said he picked 
the ceiling amount for that contract ``out of the air''. People within 
TSA said they knew the system would cost closer to $3 billion, but 
didn't want to say so. In a 2004 report, GAO reviewed TSA's acquisition 
procedures and found them lacking. In another report in 2006, GAO found 
that TSA had signed contracts with Boeing for explosive detection 
systems without any sound estimates of maintenance costs for the 
machines. In addition, TSA had paid Boeing $44 million in provisional 
award fees without any evaluation of Boeing's performance. A DHS 
Inspector General report from November 2009 found that problems persist 
today in TSA's management of its assets. The IG found that in some 
instances, new equipment is stored for years before TSA figures out 
where to send it. In 2007, the TSA Logistics Center received eight 
explosive detection systems units at a cost of about $7 million. The 
report states, ``As of January 2009, all eight explosive detection 
systems units remained in storage at the Logistics Center.'' They 
continued, ``As of January 2009, TSA also had 345 explosive trace 
detection systems units, which cost about $10.6 million, in storage for 
at least a year; some of these units had been in storage for more than 
2 years.'' Congress reacted to the perceived shortcomings in the TSA 
procurement process and included a provision in Pub. L. 110-161, 
revoking TSA's exemption from the FAR.
    Unfortunately, the contracts and equipment mistakes are not the 
only problems created by forming an agency on an emergency basis. While 
both the Bush administration and Congress seemed to say they were 
``Federalizing'' the passenger screening system, a footnote placed in 
the Aviation Security Transportation Act provided carte blanche power 
to the head of TSA to create his or her own personnel system for these 
workers. TSA employees are only ``kind of'' Federal employees. They 
have no civil service protections. They are not on the General 
Schedule. They are prohibited by directive from collective bargaining. 
As a result of that footnote, we have a Government agency that is 
managed by fear and favoritism. TSA has one of the highest attrition 
rates in the Government. Transportation Security Officers are the 
lowest paid professional staff in the Federal Government. TSA 
consistently ranks as the lowest in morale of all of Government. NTEU 
believes that it is time for these valuable employees to become part of 
the rest of the civil service, with the rights and benefits due them. 
We stand ready to work with this committee to see HR 1881 become a 
reality.
    If the committee decides to Federalize the contractors now working 
for FPS, please do it right way. Bring those employees into the civil 
service. Don't try to create something out of whole cloth. The General 
Schedule adhered to by almost all of the Federal Government provides a 
fair, transparent, and credible system for Federal employees. That's 
where these employees should be placed, and that's where TSOs should be 
placed.

    Chairman Thompson. I now recognize Mr. David Wright to 
summarize his statement for 5 minutes.

  STATEMENT OF DAVID L. WRIGHT, PRESIDENT, NATIONAL FPS UNION

    Mr. Wright. Chairman Thompson, Ranking Member King, Members 
of the committee, my name is David Wright. I am president of 
Local 918, the National Federal Protective Service Union, 
affiliated with the American Federation of Government 
Employees. I have been a law-enforcement officer with the 
Federal Protective Service for over 23 years. I have seen this 
agency go from a proud, committed, mission-focused agency to 
one that seems more focused on saving money, rather than 
protecting the employees of, and visitors to, Federal 
buildings.
    Mr. Chairman, my written testimony includes a detailed 
recounting of the history of how FPS came to rely so heavily on 
a contract-guard workforce that is inadequately monitored and, 
oftentimes, ineffective on the job. In order to save time, I 
will focus my remarks today on changes that need to be made to 
enable the FPS to effectively perform its mission.
    It is evident to us that the Federal Government can no 
longer rely on private companies to provide private security 
guards, whose training and authority is determined by 
individual States and municipalities, to continue to protect 
high-profile and high-security Federal properties. The risk is 
too high to rely on an individual guard whose authority and 
perception of that authority is guided by local Government and 
his company's chain of command, whose priority is to minimize 
liability to a company.
    As in the recent case of badly needed X-ray machine 
training, the massive effort needed to modify private security 
contracts covering about 15,000 guards for each new training 
requirement--is not feasible, and costs the taxpayers money 
they can ill afford.
    It is AFGE Local 918's recommendation that the FPS use the 
model developed by U.S. Capitol Police. The officers that 
provide security to the Capitol and Congressional office 
buildings are Federal employees. They are law-enforcement 
officers trained at the Federal law-enforcement training 
center, and possess the authority of arrest on Federal 
property. Local 918 also recommends hiring of police officers 
for contract-guard monitoring, law-enforcement patrol, and 
response. Civilian-mission support staff should be hired and 
dedicated to the oversight of any remaining security contracts, 
removing those recurring administrative duties from the law-
enforcement inspector.
    It is AFGE Local 918's further recommendation that in-
sourcing start with the critical weapons detection and roving 
patrol posts at facility security level four's major Federal 
office buildings. Our unofficial estimate is that there are 
between 5,500 and 6,500 FTE-equivalent positions that provide 
weapons screening and roving patrol to our highest-risk 
facilities.
    The cost per hour that FPS pays low-bid companies for the 
services that GAO found deficient approaches $40 an hour, on 
average. Starting now with converting these positions with 
proper training and supervision is not cheap, as doing the 
right thing rarely is.
    We estimate a total FTE of approximately 7,000, including 
proper supervision, real benefits, and professional training at 
a Nation-wide cost increase of almost $600 million. The 
incremental costs would be in the range of $20,000 to $25,000 
for a full-time position. Now is the time to start this 
multiyear process, but it cannot be done at the expense of 
needed increases to our inspector and police officer ranks.
    Therefore, after FPS FTE is initially increased by at least 
300, an additional 100 FTE is needed in fiscal year 2011 to 
transition critical guard posts at 20 to 25 major Federal 
buildings. The rate would be increased to 200 in fiscal year 
2012 and 500 a year thereafter, until the Secretary of DHS can 
certify all essential, critical, and high-risk facilities have 
implemented protection of Federal employees by Federal law-
enforcement officers.
    In conclusion, much has changed in the security of our 
Federal workers and workplaces in the last 20 years. Screening 
and roving patrol duties that were outsourced in the past no 
longer serve as an effective measure. In today's dynamic threat 
environment, our high-profile, high-risk Federal workplaces 
demand the investment required to use Federal law-enforcement 
officers to protect Federal properties. Now is the time to 
smart with a--now is the time to start with a small downpayment 
in fiscal year 2011, followed by increasing investment in 
future years.
    AFGE would be delighted to work with Congress to make this 
happen.
    Finally, I leave you with this thought: The recent high-
profile threats to Congressional figures and Federal employees 
fall directly under the purview of Federal Protective Service. 
Making the necessary reforms to this agency and increasing the 
number of Federal police officers on duty are not a matter of 
responding to vague, unsubstantiated warnings. The threat and 
immediate danger is quite real. The writing is on the wall. I 
am available for questions.
    [The statement of Mr. Wright follows:]
                 Prepared Statement of David L. Wright
                             April 14, 2010
    Chairman Thompson, Ranking Member King, and Members of the 
committee: My name is David Wright. I am the president of the National 
Federal Protective Service Union affiliated with the American 
Federation of Government Employees. I have been a law enforcement 
officer at the Federal Protective Service for over 23 years. I have 
seen this agency go from a proud, committed, mission-focused agency to 
one that seems more focused on saving money than protecting the 
employees and citizens who work in Federal buildings.
         growth in guard usage over time/reduction in oversight
    The ratio of Federal Protective Service law enforcement officers--
with responsibility of monitoring and oversight--to private contract 
security guards has steadily decreased:

------------------------------------------------------------------------
                                                              Guards per
                                                     No. of       FPS
                                                     Guards     Officer
------------------------------------------------------------------------
Fiscal year 2001.................................      5,000         6.3
Fiscal year 2003.................................      7,000         8.1
Fiscal year 2010.................................     15,000        18.3
------------------------------------------------------------------------

    When I entered the Federal Protective Service in 1986, GS-083 
Federal Police Officers (FPO's) were pay grade GS-5 essentially the 
same grade as when buildings were guarded by Federal employees. Much 
has changed since then when these officers were responsible for the 
day-to-day monitoring of several thousand private contract security 
guards (CG's) while also responding to law enforcement and security 
calls for service. CG monitoring was a critical part of the day-to-day 
oversight which also included daily inspections of all CG personnel on 
duty during a given shift. Of course at that time there were less than 
2,500 contract guards Nation-wide. Additionally, the year I arrived FPS 
was reduced over 800 positions to an equivalent of 1,170 in-service 
field staff--almost 200 more than today's minimum.
    When guards were inspected each CG would have to provide evidence 
of being lawfully present--employed by a security contractor of the 
Federal Government, possessing of the appropriate law enforcement 
agency commission (city or State) and certification of firearms 
qualifications. Inspections also included determinations of the CG's 
knowledge of and ability to perform duties according to post orders. 
These included proper physical condition (asleep/intoxicated?), 
necessary equipment (weapon/equipment/keys), and contraband items 
(reading materials or the presence of a television). GS-083's were 
responsible to the command for documenting these findings usually on a 
daily, shift-to-shift basis--24 hours per day, 7 days per week. In 
general, the private security guards--CG's--were only used at GSA-owned 
Federal office buildings and complexes. The in-service staff, both 
security specialists and Federal Police officers was in marked decline 
in the years preceding the April 19, 1995 bombing of the Murrah Federal 
Building in Oklahoma City. The assumption was that Federal employees 
and buildings could be protected in the same manner as commercial 
property with contractors in ``soft'' uniforms. It was dead wrong then 
and it is wrong today!
    After the Oklahoma City bombing, FPS' reliance on CG's increased 
dramatically in an attempt to adhere to the newly established DOJ 
Standards--the Security Assessment of Federal Facilities. FPS was 
responsible for implementing the standards in GSA-controlled buildings. 
The number of Federal Police Officers began to increase once again from 
1996-1998, but despite a doubling of contract guards to 5,000, FPS 
never approached the 1986 levels. As attempts to institute a more 
professional FPO workforce increased, there was recognition that a 
better pay scale was needed to draw the needed professionals into the 
Agency--focusing so much responsibility on a GS 5 FPO was an 
anachronism. The world had changed, our criminal and terrorist enemies 
were developing ever more sophisticated strategies and tactics, and 
building security and law enforcement became more complicated to 
develop countermeasures to these threats.
    Attempts to obtain Federal law enforcement status and increased pay 
for the overworked FPO's failed. In 1998, plans to combine the GS-083 
Police Officer and the GS-080 Physical Security Specialist were started 
in order to retain and attract quality Federal employees to accomplish 
the myriad of security and law enforcement tasks. The result was the 
GS-080 Law Enforcement Security Officer (LESO or Inspector) series 
which resulted in a journeyman level GS-12 for our law enforcement 
officers that were to serve as community police officers providing both 
security and law enforcement services. They were to partner with FPO in 
medium and large cities who conducted around the clock patrols and 
response in conjunction with the Inspectors.
    Instead, the increased responsibilities attendant with the higher 
pay grade demanded that the Inspector perform a significantly higher 
degree of physical security duties to include building security 
assessments and facilitation of the Building Security Committees 
(BSC's) along with CG monitoring/oversight/and administrative portions 
of Contracting Officer Technical Representative (COTR) duties. Based on 
the ``jack of all trades'' and ``more bang for the buck'' mentality of 
GSA and FPS management, they cut the FPO positions that are critical to 
a realistic community policing strategy. The results of this idiocy 
speak for themselves--GAO report after GAO report has documented the 
inadequate protection of Federal employees and workplaces. Bottom line: 
the lack of adequate staff has led to the decline of effective security 
contract oversight. This decline coupled with the reliance on private/
for profit businesses has directly led to the inadequate overall 
security screening and effectiveness at Federal properties.
    Unfortunately, the concept was never properly resourced and 
meanwhile more and more contract guards were added creating a surefire 
failure point. GSA was clearly penny-wise and pound-foolish with their 
extreme out-sourcing initiatives, meanwhile the Congress, the White 
House Complex and the Pentagon continued use of FPO rather than 
contract guards. The Federal employees in those facilities have the 
full mantle of protection by other Federal employees--shouldn't the 
most critical high-risk GSA facilities be protected in the same manner? 
Absolutely they should!!!
    The dangerous overreliance on contract guards also beget other 
issues including that contract security authority is regulated by State 
and municipal authorities in each locality. There is NO Federal 
standard for law enforcement or arrest authority of private security 
contractors in the United States. Consequently, a private CG's 
authority varies widely from State to State, city to city. In some 
States and cities, because of local regulation, the guards at Federal 
buildings can't carry the OC spray or expandable baton intermediate 
weapons mandated by National FPS requirements. Private security 
companies are also very concerned with civil liability of their company 
and employees. The result is a large workforce--without a vested 
interest in a Federal career--that varies in dedication to mission of 
protection of Federal properties, Federal employees, and visitors to 
those properties. It is not a rare occasion that CG's will abandon 
their duties due to non-payment by the guard company.
    The effectiveness of Federal Acquisition Regulations in the 
administration of security contracts has suffered by the repeated 
failures to impose any meaningful penalty for contract deficiencies 
such as unmanned posts--posts ``guarded'' by uncertified guards, guards 
who were asleep, on no guard at all. All too often the only cost to a 
contractor for failing to provide a guard is they don't get paid the 
hourly rate. As you can expect causing them to save wage and benefit 
costs and forgo their profit provides little incentive to curtail the 
practice. A private company's ability to dispute and defeat any 
attempts at ``cure'' of a Federal contract failure have increased over 
the years as oversight has become ineffective and the companies learn 
to game the system as part of their ``business plans''.
    The resultant failures of an all contractor access control and 
patrol force at high-risk buildings were well-defined by GAO in the 
preliminary report to Congress in July 2009:
    The GAO identified concerns with FPS' use of contract security 
guards, including the fact that CG's have authority only for 
detention--not arrest--of suspects. GAO also verified that FPS does not 
fully ensure that its contract security guards have the training and 
certifications required to secure Federal facilities; that there is not 
a reliable method for monitoring and verifying contract guard training 
and certification requirements; that FPS did not have specific National 
guidance on when and how contract guard inspections should be 
performed; and that FPS inspections of contract security guard posts at 
Federal facilities are inconsistent, and the quality of the inspections 
varies across FPS regions.
    Findings of the GAO in the preliminary report also include reports 
of ill-trained security guards asleep on the job or inattentive to 
duties. Introduction and assembly of bomb-making materials into 10 
security level 4 facilities across the Nation stunned Congress, the 
public, and the media.
    There are approximately 750 street-level law enforcement officers 
responsible for all CG training, monitoring and oversight, law 
enforcement patrol, response to law enforcement/security calls for 
service and physical security administration duties. A schedule has 
been released to mandate regular inspections of CG's different security 
level facilities. These efforts are ineffective in that the schedule 
pertains to the facility guard post and is based only on the security 
level not the number of individual CG or even the number of posts at a 
certain facility. Thus some posts and guards will be inspected every 
week, while others may only be inspected two or three times a year. It 
is also conceivable that some CG's can evade inspection for years.
    Efforts to provide more training to CG's in detection of bomb-
making materials have become a quagmire. Time required for ``train the 
trainer'' efforts to instruct FPS Inspectors--who in turn will train 
other FPS Inspectors--in order to train CG's--is a luxury that the 
American public cannot afford. In order for the increased training to 
CG's occur, all private security contracts have to be modified before 
Agency policy can be modified. Bottom line--there has been significant 
training in a few regions but across the entire guard force the only 
training that has occurred since the GAO preliminary report in July 
2010 is the mandated viewing of a new video in bomb detection. And that 
took several weeks to negotiate and issue a contract modification. Here 
again the dysfunctional funding scheme of FPS comes into play. In order 
to increase the number of training hours and require all guards to be 
retrained on weapons detection FPS must get its DHS contracting section 
to determine what price each contractor will charge, FPS must change 
the building specific security charge to pay for the cost, and then 
(after much red tape and paper) the contracting officers can issue the 
modification and training can commence. If these critical guards were 
Federal employees the training would already be done.
    The result of the mandate for increased monitoring/oversight by FPS 
law enforcement officers has also resulted in less proactive patrol, 
less law enforcement response capabilities, and less time for proper 
physical security assessments. Efforts by FPS to increase private 
security contracts and CG monitoring/oversight as result of the GAO 
findings have ``robbed Peter to pay Paul''.
    The Risk Assessment Management Program (RAMP)--a web-based program 
rolled out in November 2009 includes a guard management section that--
to date--has been useless in CG monitoring and private security 
contract oversight activities.
    The GAO's documentation of the lack of effective oversight of 
security contracts speaks to the ``jack of all trades'' mentality of 
FPS management in decreasing manpower and combining distinct job duties 
into the Inspector position. This is all a direct result of the fee 
funding scheme mandated for FPS. Efforts to increase security fees in 
order to increase revenue are an exercise in futility.
                       where do we go from here?
    It is evident that the Federal Government can no longer rely on 
private companies to provide private security guards--whose training 
and authority is determined by individual States and municipalities--to 
continue to protect high-profile, high-security Federal properties. The 
massive effort needed to modify private security contracts--covering 
about 13 to 15 thousand guards--for each new training requirement is 
not feasible and costs the taxpayer money they can ill afford.
    The risk is too high to rely on an individual guard whose 
authority--and perception of that authority is guided by local 
government and his company ``chain of command''--whose priority is to 
minimize liability and increase profit to the shareholder.
    It is AFGE Local 918's recommendation that the FPS use the model 
developed by the U.S. Capitol Police and the U.S. Secret Service 
Uniformed Division. The officers that provide security at the Capitol 
and Congressional office buildings are Federal employees. They are 
trained at the Federal Law Enforcement Training Center (FLETC) and 
possess the authority of arrest on Federal property.
    A mandate of Federal GS-083 or GS-1801, grade 6/7 Federal 
Protective Officers at entry points of security level 3 and 4 GSA 
controlled buildings would provide an increased layer of protection by 
Federal law enforcement officers with the requisite authority, 
responsibility, and duty to intervene in law enforcement and security 
incidents. This agile force could rapidly adapt to change driven by the 
dynamic threat environment in which we operate. Changes in training and 
other requirements could be immediately implemented without worrying 
about the amount a company can gouge the Government with an ``equitable 
adjustment''.
    A mandate to increase the number of GS-083, grade 7 and 9 FPO's 
would provide mobile patrol response and increased CG monitoring at 
significantly fewer security level 1 and 2 (lower profile) facilities.
    That model would also provide a career ladder to Federal law 
enforcement officers of the FPS. Beginning at the GS-6/7 level, the FPO 
would compete for the higher-level positions whose duties would include 
proactive mobile patrol, response to law enforcement calls for service, 
lead/supervisory police duties and eventually an Inspector position. 
This concept would lend the added benefit of developing a single ``FPS 
culture'' which has been lacking since the inception of FPS.
    Local 918 also recommends hiring of civilian security specialist 
COTR who would be dedicated to the oversight of remaining security 
contracts--removing those recurring administrative duties from the 
Inspector--thereby allowing the successful performance of increased law 
enforcement response and physical security duties.
    In order to facilitate the hiring and maintenance of these 
personnel, it is important that Congress mandate a different approach 
to the funding FPS. The present system of funding by security fees is 
at best ineffective and counterproductive. At worst it is a serious 
hindrance to daily security of Federal buildings in this country. In 
the past, Agency and Union efforts to seek increased funding through 
direct appropriations have gone unheeded and have resulted in the 
dilemma that we see today--a reduction of dedicated civil servants in 
favor of a disjointed contract security force with hundreds of private 
company personnel serving as the ``chain of command'' at each major 
Federal property.
                           how to in-source?
    It is AFGE Local 918's recommendation that in-sourcing start with 
the critical weapons detection and roving patrol posts at the major 
Federal office buildings at Facility Security Level 4 and some Level 3.
    Our unofficial estimate is that there are between 5,500 and 6,500 
FTE equivalent positions that provide weapons screening and roving 
patrol at our highest-risk facilities. The cost per hour FPS pays the 
low bidder companies for the service the GAO found deficient approaches 
$40 an hour on average. Starting now with converting these positions 
with proper training and supervision is not cheap--as doing the right 
thing rarely is. We estimate a total FTE of approximately 7,000 
including proper supervision, real benefits, and professional training 
at a Nation-wide cost of almost $600 million. The incremental cost 
would be in the range of $20k to $25K per full-time position.
    Now is the time to start this multi-year process, but it cannot be 
done at the expense of increases in our inspectors and police officers 
for increased service hours. Therefore after FPS FTE is increased by at 
least 300, an additional 100 FTE for fiscal year 2011 to transition-
critical posts at 20 to 25 buildings would get us started on the road 
to proper protection of our dedicated Federal employees. The rate could 
be increased to 200 in fiscal year 2012 and 500 a year thereafter until 
the Secretary of DHS can certify all essential, critical, and high-risk 
facilities have implemented protection of Federal employees by Federal 
employees.
    In conclusion, AFGE Local 918 asks this committee to seize this 
opportunity--before the next attack--to remedy the FPS dilemma.
    Priority 1 is the introduction of the GS-083 FPO (GS 6/7) 
workforces that would take over responsibilities for daily weapons 
screening and roving patrols at all high security Federal office 
buildings.
    Priority 2 is that the GS-083 FPO (GS 8/9/10/11) workforce must be 
reinvigorated to increase monitoring of the remaining CG workforce and 
to perform law enforcement patrols and response.
    Priority 3 is the hiring of civilian personnel to reinstitute the 
District Contract Guard Program Manager with COTR duties--who would be 
responsible for the daily oversight of the remaining CG workforce and 
private security contracts.
    In conclusion, much has changed in the security of our Federal 
workers and workplaces in the last 20 years. The screening and roving 
patrol duties that were outsourced in the past no longer serve as an 
effective measure. In today's dynamic threat environment our high-
profile, high-risk Federal workplaces demand the investment required to 
use Federal employees to protect Federal employees. Now is the time to 
start with a small downpayment in fiscal year 2011 followed by 
increasing investment in future years. AFGE would be delighted to work 
with the Congress to make this happen. The safety of our dedicated 
civil servants is too important to continue with a failed structure.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Amitay to summarize his statement for 5 
minutes.

 STATEMENT OF STEPHEN D. AMITAY, FEDERAL LEGISLATIVE COUNSEL, 
           NATIONAL ASSOCIATION OF SECURITY COMPANIES

    Mr. Amitay. Thank you, Mr. Chairman.
    My name is Steve Amitay, and I am Federal legislative 
counsel of NASCO, the National Association of Security 
Companies. NASCO is the Nation's largest contract-security 
trade association, representing private security companies that 
employ more than 400,000 security officers across the USA.
    Today's hearing asks the question of whether the 
Federalization of FPS contract security guards will improve 
security. The answer to that question is: No.
    What will improve security, though, is better-paid guards 
and better training, oversight, accountability, management, and 
administration of guards. These improvements can be 
accomplished without Federalizing FPS guards, in an efficient 
and an effective manner.
    In the recently released draft OMB in-sourcing policy 
letter, OMB notes that building security is not inherently 
governmental in function, and should continue to be performed 
by contractors. In the GAO's numerous reviews of the contract-
guard program, GAO has never inferred that the program's 
problems and poor guard performance is a symptom of the 
contractor nature of the guards.
    Mr. Ervin and Mr. Wright, too, have made the argument for 
Federalization on the basis that because private contractors 
seek to make profits, they will seek to cut costs to maximize 
profits, and this translates into providing a lesser service--
in this case, security. Mr. Ervin also asserts that 
Federalization of airport screeners was ``in recognition that 
before 9/11, contractors put profit ahead of security.''
    First, the inference that the use of private screeners at 
airports allowed for the tragedy of 9/11 to take place is not 
only wrong, but it is offensive. FAA regulations in place on 9/
11 permitted the weapons the 9/11 terrorists used to take over 
the planes to be brought on board. The 9/11 Commission Report 
found that each security layer relevant to hijackings--
intelligence, passenger pre-screening, checkpoint screening, 
and on-board security--were seriously flawed prior to 9/11.
    Second, and more generally, to make the assertion that a 
private contractor's desire to make a private means a private 
security guard will not perform as well as a ``nonprofit 
Federal security guard'' is outright false. It is a dubious 
indictment of all Government service contractors and, for that 
matter, American capitalism.
    While cutting costs is one way for a contractor to increase 
profits, what also increases a contractor's profits is 
providing excellent service in order to retain contracts and to 
expand one's customer base. Also, in the private sector, 
constant competition from other contractors create an incentive 
to perform well, employ best practices, and seek to constantly 
improve.
    These performance drivers are not present in the Federal 
sector. The Federal workplace is beset with a host of 
performance and motivation issues.
    One such issue is accountability, which Mr. Ervin noted, is 
key to better performance. I would note that an FPS contract 
guard can be removed immediately by FPS for poor performance. 
This is virtually impossible with Federal employees, and 
becomes even harder as time goes by.
    As to the notion that contract guards would have less 
training than Federal guards--as it should be clear by now, it 
is the FPS who sets the training requirements for guards. A 
Federalized guard will only have the amount of training 
required by FPS to stand post. However, as is often the case, a 
contract guard has all the required FPS training, and 
additional training from his company, if deemed necessary for 
proper performance.
    The impetus for today's discussion in--calls for 
Federalizing FPS contract guards is the admittedly dismal 
results of contract guards in the GAO covert-explosion-
detection test. But would Federal guards have fared better in 
these tests? In 2007, several years after airports switched 
from private screeners to Federal screeners, GAO conducted 
covert-explosion-detection tests on TSA Federal screeners that 
were virtually identical to the test that the GAO conducted on 
FPS contract security guards. The results were also identical 
and, perhaps, even more troubling, given the significant 
Federal investment in training TSA Federal--that have been 
invested in Federal screeners.
    Mr. Ervin, though, argues that it would still be better 
than pre-9/11 screeners. But what about private screeners after 
9/11? In fact, in 2007, TSA commissioned a study of the 
performance of private airport screeners, which are allowed to 
work at airports under the Screening Partnership Program.
    The study found that private screeners' performance was 
``equal or better,'' than that of Federal TSA screeners. 
Perhaps TSA should be looking more to outsourcing to improve 
screener performance. In a more recent real-life comparison of 
contractor versus Federal security--in the last year, there 
were three incidents where an armed gunman entered a Federal 
facility and started shooting. In all three incidents, security 
personnel were able to neutralize the gunman before he could 
proceed any further. In two of the incidents, the security was 
contract security. In the other, it was Federal security.
    In looking at the problems of guard performance, one must 
look at the root causes--inadequate FPS training for X-ray and 
magnetometers is frequently cited. If such training is poor, 
then it does not matter if the recipient of the training is 
Federal or private. The outcome will be the same. The same goes 
for supervision and management.
    Federalizing FPS contract guards at Federal facilities 
would not only be a massive undertaking and come at a great 
expense, but it will create new workforce difficulties for FPS 
and, most significantly, as the TSA experience clearly shows, 
improvements in security, compared to using contractors could 
be non-existent.
    Any cost-benefit analysis of Federalizing FPS guards should 
consider all the relevant factors and costs and be done on an 
equal basis.
    Finally, NASCO fully agrees with the notion that the 
protection of Federal buildings should be driven by security 
concerns and not budgetary ones. We support the inclusion of 
higher performance-related standards and contracts to ensure 
that the quality of a company's training, personnel, 
management, and operational procedures are adequately 
considered during the procurement process. This will result in 
higher bids, but it will also result in better-trained and 
better-paid and better-motivated contract security officers who 
will be held strictly accountable.
    Money should also be made available for more FPS inspectors 
and COTRs to provide the management, oversight, and training 
for guards, as the key to any successful program is management 
and oversight. Thank you.
    [The statement of Mr. Amitay follows:]
                Prepared Statement of Stephen D. Amitay
                             April 16, 2010
      background on private performance versus federal performance
    In the past year there have been three separate incidents where at 
the entrance of crowded Federal facility an armed gunman started 
shooting. The first incident was last July at the U.S. Holocaust Museum 
in Washington. The second incident was in January at the U.S. Court 
House in Las Vegas, Nevada. The third, and most recent incident, was in 
March at the Pentagon in Virginia. In all three incidents the gunmen 
opened fire at the security personnel stationed at the entrance. 
Tragically, in two of the incidents security personnel were killed by 
the gunman, but in all three incidents security personnel were able to 
neutralize the gunmen before he could proceed any further and without 
any additional loss of life.
    At the Holocaust Museum, the security personnel who stopped the 
gunman were contract security officers. In Las Vegas, the security 
personnel were also contract security officers. At the Pentagon, the 
security personnel were Pentagon police officers.
    However, while it can be shown that contract security officers can 
be as proficient in providing security at Federal facilities as Federal 
security/police officers; the impetus for today's hearing on the 
potential for Federalization of FPS contract security officers stems 
directly from the troubling results of GAO's 2009 covert explosive 
detection testing at FPS Federal facilities. In these tests, GAO 
investigators ``with the components for an improvised explosive device 
(IED) concealed on their persons . . . passed undetected through access 
points controlled by FPS guards.''\1\ Based on the failure of the FPS 
contract guards in these tests, it has been suggested that just as 
private screeners at airports were Federalized to increase screener 
performance and security at airports, FPS guards should also be 
Federalized to increase performance and security at high-risk Federal 
facilities.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Preliminary Results Show Federal 
Protective Service's Ability to Protect Federal Facilities Is Hampered 
By Weaknesses in Its Contract Security Guard Program, GAO-09-859T 
(Washington, DC: July 8, 2009).
---------------------------------------------------------------------------
    It has been estimated that the cost of replacing a contract 
security officer with a Federal officer will be on the magnitude of two 
to three times more expensive. But for the time being putting aside the 
massive increased cost per officer aside and other inherent management 
and workforce problems associated with converting contractors to 
Federal employees, today's hearing is about whether Federalizing 
security officers at FPS guarded facilities will improve job 
performance and thus security.
    In 2007, several years after airports had switched from private 
screeners to Federal transportation security officers, GAO conducted 
covert explosive detection tests on the TSA officers that were 
virtually identical to the tests of FPS contract security. How did the 
Federal security officers fare? The results were that ``GAO 
investigators succeeded in passing through TSA security screening 
checkpoints undetected with components for several improvised explosive 
devices (IED) and an improvised incendiary device (IID) concealed in 
their carry-on luggage and on their persons.''\2\
---------------------------------------------------------------------------
    \2\ GAO, ``Aviation Security: Vulnerabilities Exposed Through 
Covert Testing of TSA's Passenger Screening Process,'' Statement of 
Gregory D. Kutz, Managing Director Forensic Audits and Special 
Investigations; John W. Cooney, Assistant Director Forensic Audits and 
Special Investigations GAO-08-48T, November 17, 2007.
---------------------------------------------------------------------------
    These were not the first (or last) failed explosive screening tests 
by Federal TSA security officers, and in the wake of these and other 
failed tests, one of my fellow witnesses, Mr. Clark Kent Ervin, the 
former Homeland Security inspector general, told this very committee in 
November 2007 that,

``The sad fact is that for all the dollars and attention that has been 
focused on screener performance since 9/11 study after study--by the 
DHS Inspector General, the Government Accountability Office; news 
organizations, and, even, the TSA itself--shows that it is just as easy 
today to sneak these deadly weapons past screeners than it was on 9/
11.''\3\
---------------------------------------------------------------------------
    \3\ Statement of Clark Kent Ervin before the House Homeland 
Security Committee November 14, 2007 Hearing ``Did TSA Tip Off Airport 
Screeners about Covert Testing?''

    The above examples of both exemplary and non-exemplary performance 
by Federal and contract security demonstrate that it would be 
inaccurate to assume that Federalizing security guards at FPS-protected 
facilities will lead to greater performance and security at the 
facilities. In fact, it bears noting that a 2007 TSA-sponsored study 
analyzing the performance of private contractor passenger screening at 
airports (permitted under the Screening Partnership Program) found that 
private screeners performed at a level that was ``equal to or greater 
than'' that of TSA Federal transportation security officers.\4\
---------------------------------------------------------------------------
    \4\ Catapult Consultants, Private Screening Operations: Business 
Case Analysis, Transportation Security Administration, Screening 
Partnership Program, December 14, 2007 SEE ALSO, GAO, ``Aviation 
Security: TSA's Cost and Performance Study of Private Sector Airport 
Screening'' GAO-09-27R, January 9, 2009.
---------------------------------------------------------------------------
                 the problem of poor guard performance
    In the GAO's numerous reviews of the operation of the FPS 
``Contract Guard Program,'' GAO has never inferred that contract 
security officers are incapable or unable to fulfill the security 
responsibilities of their posts or increase performance. As GAO 
accurately describes, ``Guards are primarily responsible for 
controlling access to Federal facilities by: (1) Checking the 
identification of Government employees as well as members of the public 
who work in and visit Federal facilities, and (2) operating security 
equipment, such as X-ray machines and magnetometers to screen for 
prohibited materials such as firearms, knives, explosives, or items 
intended to be used to fabricate an explosive or incendiary 
device.''\5\
---------------------------------------------------------------------------
    \5\ See July GAO report in Footnote 1.
---------------------------------------------------------------------------
    In commenting on poor performance by FPS guards, the GAO and other 
reports often cite weaknesses in the training of contract security 
officers in building access control procedures, and particularly in the 
obviously crucial area of magnetometer and X-ray machine training. The 
FPS has always had the responsibility to conduct training in this area. 
In its July 2009 report on the Contract Guard Program the GAO noted 
that in some cases the required X-ray and magnetometer training was 
simply not provided to contract security officers or in other cases it 
was inadequate.
    Federalizing contract security forces will not change the outcome 
of poor training. When making decisions about Federalizing the force, 
one must look at the root causes of the current deficiencies and one 
root cause is poor training administered by the FPS, not necessarily 
the recipient of the training. What then is needed is what FPS has 
started to do, conduct more X-ray and magnetometer training with 
improved and consistent procedures across all regions of the country. 
The new ``National Weapons Detection Training Program'' will include 16 
hours of standardized screening and detection training, and 8 hours 
annual refresher training. In the past such crucial training consisted 
of a total of 8 hours and it was not uniform, leading to further 
problems and confusion. In addition, through its new ``Operation 
Shield'' program, FPS has increased the number of internal FPS covert 
tests of contract guard performance. NASCO would also like to see 
greater development of well-written policies and consistent application 
of access control standards across the board (both intra and inter 
regional).
    Again, quoting from Mr. Ervin's 2007 testimony on airport screener 
performance; ``There should be no mystery as to what it takes to 
improve screener performance significantly. The recommendations that my 
former office made four years ago remain as valid today as they were 
then. Screeners need to be trained regularly and stringently, under 
conditions that approximate real world ones as closely as possible.''
  other efforts and areas to address to improve fps security officer 
                              performance
    Training and standards for FPS contract guards (``protective 
security officers'') have also been updated and/or improved in other 
key areas besides detection (such as firearm qualification, equipment, 
physical requirements). These efforts are the result of a comprehensive 
``job task analysis'' recently completed by the FPS to produce 
``validated'' and ``defensible'' standards that have been carefully 
crafted and substantiated that will improve the performance of security 
officers. These FPS security officer standards could potentially be 
applied to contract security officers throughout the Federal 
Government.
    NASCO believes the new training procedures and programs and other 
improvements currently being implemented by the FPS in partnership with 
the contract security community will increase performance given proper 
time and resources. FPS is also taking other steps beyond better 
training that will improve the contract guard program and lead to 
better guard performance. There are also some areas where more work 
involving FPS and contractors is still needed.
    On the operational level, FPS' new Risk Assessment Management 
Program (RAMP)--a centralized interactive database management system--
potentially could provide for a big improvement over the current 
unreliable de-centralized CERTS system for collecting and monitoring 
training and certification data. RAMP should make the input and 
management of data more efficient and provide FPS with access to more 
up-to-date and reliable data in one location. However, contractors must 
also be able benefit from RAMP's improvements in data management. FPS 
has told contractors they will not provide information on the status of 
certifications of FPS security officers and that training must be 
provided by the company for all officers, even if such officers had 
previously received the training while working for a different FPS 
contractor. This will mandate higher prices for what could be 
unnecessary training and ultimately favor incumbents, who may not have 
the same high level of past performance delivery as an outside 
competing contractor but will have a pricing advantage. For its own 
potential benefit, FPS should share information related to the previous 
training and certification of officers when a contract is taken over by 
a new contractor.
    There are other areas where more work can be done. The GAO noted 
that improvements in building-specific and scenario-specific training 
are needed and improvements in these areas could be very beneficial. 
More guidance is needed on the issue of arrest versus detain and post 
orders can be improved in this regard.
    The GAO also called for better management and oversight of Contract 
Guard Program contracts and the need for more and better trained 
Contracting Officer Technical Representatives (COTRs). Efforts are 
underway to assign more COTRs. Underlying better management and 
oversight is the need for better communication between FPS offices, and 
between FPS and contractors. In some instances training has been 
affected by a lack of communication between FPS headquarters and the 
field. NASCO commends FPS efforts to ascertain the problems and 
concerns of contractors with information flow and efficiency issues 
that have caused delays and added expenses in the hiring and processing 
of officers.
    Another issue that was recently the subject of a Congressional 
hearing and has been a persistent problem is how the security of 
individual Federal buildings is managed. Building security is managed 
by what is referred to as a Building Security Committee (BSC) made up 
of building tenant representatives, who more often then not do have any 
security background. The BSC is commonly chaired by a primary tenant 
agency of the building and the FPS COTR may or may not be active in 
this committee. Often, the BSC is more interested in ``customer 
service'' than building security. This forces the security contractor 
to answer to two masters when the BSC does not want to cause any 
hindrance to the access to the building through the now more stringent 
access control processes as advocated by the FPS.
    Improvements in contract oversight and management, data automation, 
standardization of policies and guidance, communication, and especially 
expanded and more frequent training will definitely improve performance 
of contractors and security officers in the Contract Guard Program. The 
flaws and weaknesses found in contractor performance by the GAO though 
also point to another area in which FPS can take action that will 
increase contractor and officer performance. NASCO strongly urges FPS 
to take all the necessary steps required so that in the contractor 
procurement process quality will play a primary role in the selection 
of a private security company and not cost. There are tangible reasons 
why higher quality security costs more. Being able to provide high-
caliber officers means the company is paying higher salaries; better 
company training and screening costs more; strong company management 
and internal oversight are also factors. The FPS contract award process 
must continue to be improved to ensure that quality service and 
performance, in relation to cost, is properly considered.
    NASCO is not alone in believing that awards allegedly based on 
``best value'' are more realistically based on lowest cost, and 
technical capability and past performance are not being valued as they 
should. The FPS is now placing more emphasis on past performance rather 
than the ``low bid'' approach but price is still a deciding factor (the 
three evaluation criteria are now past performance, technical approach, 
and price). NASCO also supports the inclusion of higher performance-
related standards in contracts, as well as taking steps to ensure that 
the quality of a company's training, personnel, management, and 
operational procedures--which result in a higher bid--are adequately 
considered during the procurement process. Companies should not be 
essentially penalized for going beyond the minimum training and 
management standards required by the contract.
                background on nasco and private security
    NASCO is the Nation's largest contract security trade association, 
representing private security companies that employ more than 400,000 
security officers across the Nation who are servicing commercial and 
Governmental clients including the Federal Protective Service (FPS). 
Formed in 1972, NASCO has strived to increase awareness and 
understanding among policy-makers, consumers, the media, and the 
general public of the important role of private security in 
safeguarding persons and property. NASCO also has been a leading 
advocate for raising standards at the Federal, State, and local level 
for the licensing of private security firms and the registration, 
screening, and training of security officers.
    Nearly 2 million people are employed in private security 
domestically compared to fewer than 700,000 public law enforcement 
personnel. Approximately 75 percent of private security personnel work 
for contract security companies, with the balance serving as 
proprietary or ``in-house'' security. The vast majority of contract 
security firms employ many former law enforcement and military 
personnel in senior management. Private security officers are guarding 
Federal facilities, businesses, public areas, and critical 
infrastructure sites (of which almost 90% are protected by private 
security officers).
                  the transfer of fps from ice to nppd
    The transfer of FPS from under ICE to NPPD is a very positive move. 
The Federal infrastructure protection mission of FPS aligns with NPPD's 
mission to protect all critical infrastructure (of which Federal 
buildings is an important element). This alignment should lead to 
greater effectiveness for both NPPD and FPS. NPPD also chairs the 
operations of the Interagency Security Committee, which is the lead in 
the Federal Government for setting Government-wide security policies 
for Federal facilities.
                           concluding remarks
    Under the leadership of Director Schenkel, and with the new 
initiatives within the Contract Guard Program in the last 18 months, 
FPS is making strides to rectify the problems with the program. FPS has 
come a long way since its troubled time within ICE, and with the 
continued partnering with quality private companies; the security of 
Federal buildings will continue to improve. The GAO covert tests and 
other field work related to contract security officers was conducted 
over a year ago, and much has already improved since then.
    The proposition of ``insourcing'' FPS security officers at critical 
facilities would not only come at a great expense, impede the current 
efforts underway to improve contractor performance, and potentially 
create new difficulties for FPS, but as the TSA example clearly shows, 
the improvements in security could be marginal. With resources scarce 
and tenant agencies resistant to increased fees and security 
assessments, there is still much FPS can do within its budget or with 
modest realistic increases to improve the quality, selection, and 
training for FPS contract security officers to provide better security 
at Federal facilities. If more resources are available, an increase in 
the permanent number of FPS Inspectors could provide for better 
oversight and management of the contract security force, more training, 
more building assessments and inspections, and improvements in other 
related elements of the FPS mission.

    Chairman Thompson. Thank you very much.
    Mr. Dent has requested to go first because of another 
commitment. The Chair has decided to honor the request.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and thank you for your 
continued courtesies. You are always a real gentleman here, and 
I appreciate your consideration once more.
    My question is to Mr. Amitay. It is just one question.
    GAO has issued several reports identifying weaknesses in 
the training of contract security guards. In your testimony, 
you cite additional steps that can be taken to improve security 
in Federal facilities provided by contract guards in light of 
the several GAO reports that have identified weaknesses in 
contract-guard training and oversight.
    What are some examples of steps that can be taken to 
improve security at Federal facilities?
    Mr. Amitay. Well, I think one step that Director Schenkel 
has talked about is the fact that the X-ray and magnetometer 
training now has gone from previously 8 hours to 16 hours and, 
also, an 8-hour annual refresher course. We also believe 
Operation Shield, which provides for red-teaming and covert 
tests--that also should be increased. Then, of course, there is 
obviously better oversight of guards, better contract 
management.
    You know, for instance, these companies that are not 
performing due to the specifications of the contract, action 
should be taken against them, and, perhaps, their contracts--
you know, they should not be awarded these contracts. There is 
a lot that can be done within the current system to improve 
performance.
    Mr. Dent. Thank you.
    I yield back, Mr. Chairman. I appreciate the consideration.
    Chairman Thompson. Thank you very much.
    The purpose of this hearing, at the full-committee level, 
was to look at Federalization as one option, given the GAO 
report we recently received. The other question is: Anything 
less than 100 percent success is something we have to work 
toward, if we don't have it.
    The GAO found significant vulnerabilities within the 
present system.
    Mr. Wright, as an FPS employee, are you any less in a 
position to protect a Federal building because you are in a 
union?
    Mr. Wright. No. I see that, especially in this case, the 
union is working towards improved security of Federal 
properties. We brought this issue to the committee in 2007. It 
is, quite frankly, my union employees that raised this issue.
    The mere fact that we are a union is not a problem.
    Chairman Thompson. Well, the reason I raised it is one of 
the questions that we have had to respond to from time to time 
is that, somehow, employees who belong to unions, if a crisis 
situation would occur or some other situation, the union 
contract would be more of a binding document in that particular 
situation.
    The response has always been, ``We have policemen who 
belong to unions. We have firemen. We have other professional 
people in law enforcement. That has never been an issue.'' Even 
in this situation, even though you are here to comment, your 
testimony comes back to say that you will do your job, 
regardless to whatever the circumstances.
    Mr. Wright. Correct.
    I foresee no instance in an emergency situation, 
especially, or any--even exigent circumstances--where a Federal 
officer would stand on that union contract and not do his 
duties.
    Chairman Thompson. Mr. Amitay, I would say to you the same 
question for contract employees--do you see that being a 
problem in the performance of their security role in Federal 
buildings?
    Mr. Amitay. No. Many of the FPS contract security officers 
are a member of security-officer unions. We don't--whether they 
are union or non-union, that is not an issue, in my opinion.
    Chairman Thompson. Right.
    The framework for the GAO report, we used as the main 
support for this hearing. Our question is it FPS' failure to 
provide the adequate oversight for private security personnel, 
or is it the private security personnel not providing oversight 
of the people they employ in performance of those contracts? In 
some instances, it works both ways.
    We hold FPS directly responsible because they are the 
contracting agency. However, there is a responsibility to those 
contractors, just as you indicated, Mr. Amitay--that they have 
to perform. There is no question that if you have a contract, 
you have to do it.
    Even though GAO and FPS was at odds in some of the analysis 
of the information--and staff will get to the bottom of it--
they are at odds. I am concerned that there are still some gaps 
in training, there are still some gaps in certifying of 
employees, whether or not it is the collection of the data and 
documentation, or the fact that they exist. Both circumstances 
are totally unacceptable.
    What we are trying to offer the public is that, at any time 
you enter a Federal building, that building is secured by the 
most professional individuals that we can identify, whether 
they are members of the Federal Protective Service or contract-
guard individuals. We just want to make sure that the public is 
aware.
    We have some challenges. I would say to both of you that 
this is our third hearing on this issue. We will look forward 
to working with both you and some other interested groups to 
try to make sure that whatever we come with, the public at 
large is protected. With that, I will yield to the gentlelady 
from Texas for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. This is 
a very important hearing. I know that we have had 
representatives from the Federal Protective Service, the 
physical infrastructure issues of the Government Accountability 
Office and, of course, the director of the Homeland Security 
Program on the Aspen Institute--and familiar with their 
testimony. I wanted to probe these points.
    Mr. Chairman, I am in a Federal building, and have utilized 
the security that is at that building. I would like to put on 
the record it is the Mickey Leland Federal Building in Houston, 
Texas. I want to pay tribute and compliment the individuals 
that are working hard there every day, and the diligence and 
attention to their position. However, at the same time, I know 
there are questions of hours, there are questions of 
compensation, questions of benefits, questions of having enough 
persons around the clock. I might say that there might say that 
there might be even questions of training.
    I think we have to find a way to address those issues, 
because our job is to secure America. So I would like to pose a 
question to Mr. Wright, and then to Mr. Amitay.
    One of the things that disturbs me is the idea that when 
you have a contractual relationship for securing a Federal 
building, those security personnel may be impacted by State and 
local laws--different State and local laws, which would also 
speak to the difficulty of having consistent training.
    Mr. Wright, what do you think about the idea of 
Federalization--that it would cure the disparate laws that have 
to be utilized, and also maybe different standards, as it 
relates to training?
    Mr. Wright. Yes, I have said all along and I think Mr. 
Green alluded to it a bit earlier. The authority of private 
contract security comes from State and local municipalities. 
There is no Federal standard for these certifications.
    We have to rely on companies to comply with--I come from 
Kansas City. We have to rely on the companies to comply with 
Kansas City standards, and come to FPS and show us that 
certification. So I think that is a lot of the problem with the 
documentation going on in these files. It is not FPS working 
with the Kansas City Board of Police Commissioners. It is a 
private company working with the Board of Police Commissioners 
and, thereby, that information flows back to us. So that is a 
huge problem.
    Ms. Jackson Lee. In the Federalization, if that was to 
occur--because I worry about people's jobs and hardworking 
individuals that I see working every day--in the 
Federalization, would we be able to recruit from those existing 
individuals?
    Mr. Wright. Yes, absolutely. I think that is really--given 
experience, that is the way to go. Please, this is not a 
denigration of our contract security officers at all. This is 
really a denigration of the lack of a Federal authority, the 
lack of State and local governments that send these individuals 
over to guard our Federal buildings.
    I would like to clarify one other thing, earlier, in 
regards to oversight. We have been told--or the testimony was 
made at the committee that FPS supervises these security 
officers. We do not. We can supervise in an actually emergency 
situation.
    Ms. Jackson Lee. But not otherwise?
    Mr. Wright. Correct.
    Ms. Jackson Lee. Let me move to Mr. Amitay.
    Thank you. I am glad you clarified that on the record.
    Mr. Amitay, I think there are probably some very good 
contractors. I have worked with them. But we do find that the 
GAO found that contractors continued to send guards to stand 
posts without ensuring that they have had certification.
    There may be a balance between Federalization and some 
contractors being used. But the key element is: How do you 
train and certify, and have you been inconsistent in your 
organization, or the contractors, with that training and 
certification?
    Mr. Amitay. Well, two points--first of all, the training 
requirements and certification requirements are set by FPS. A 
lot of these certification requirements and training 
requirements are pretty clear--you know, weapons training, 
vision certification, first aid certification. These are things 
that, objectively, can be obtained.
    The problem is, though--you are right. Some of these 
contractors are not--they are not doing it correctly. I mean, 
maybe there is a problem with the system. But I think the GAO 
has made it pretty clear that there are instances where the 
contractors are not living up to the requirements that are set 
by FPS.
    In those instances, corrective action should be taken and, 
if need be, these contractors should not be getting these 
contracts, especially not being then--you know, given them 
again, which is sometimes the case. There are plenty of FPS 
contractors out there who have very good records of 
performance, very good records of certification; very good 
relationships with FPS.
    But if we have a contracting process that goes to the 
lowest bidder and we have an oversight process that is 
inadequate, then you are going to have these instances of 
faulty contractor performance, just as, if there were all 
Federalized guards, and there wasn't adequate oversight, you 
could have instances of faulty Federal-guard performance.
    Ms. Jackson Lee. Mr. Chairman, let me, as I yield back to 
you, really thank Mr. Amitay for his straightforwardness and 
directness that there are some Achilles' heels and some 
failures on lack of training and certification. As you well 
know, we have the obligation of Federal buildings and securing 
them.
    So I would just hope, as we go forward and we look at the 
legislation, that we take into consideration maybe there is a--
as we do in other Federalization--there is probably a balance 
where there are some private contractors. Mr. Chairman, I just 
want to make sure that those who are working may have the 
opportunity to apply--that legislation includes the opportunity 
for those existing individuals to apply to the Federal system, 
because many of them are dedicated and committed to their 
profession and to their jobs.
    With that, I yield back to the Chairman.
    Chairman Thompson. Thank you very much.
    As you know, the Department is proposing to in-source 3,500 
contract jobs this fiscal year.
    Ms. Jackson Lee. Right.
    Chairman Thompson. But none of them are with FPS. So, at 
this point, everything is as is. But I agree with you that, 
going forward, if in-sourcing would occur within FPS, those 
individuals who are private would, in fact, have some priority 
status for placement.
    But I also would want to indicate to Mr. Amitay that his 
support of contractors doing what they contract for goes a long 
way with this committee.
    Ms. Jackson Lee. Yes.
    Chairman Thompson. I raised it in the other panel that 
there is no substitute for doing it right. If we are not, as 
FPS, performing the necessary oversight on the contracts, shame 
on us.
    Ms. Jackson Lee. That is right. We have seen the loss of 
life.
    Chairman Thompson. Absolutely.
    So we will continue.
    I would like to thank both gentlemen for their valuable 
testimony, and the Members for their questions.
    Ms. Jackson Lee. Mr. Chairman, this gentleman had his hand 
up. I don't know if you want to recognize him.
    Chairman Thompson. Oh.
    Mr. Wright.
    Mr. Wright. I would like to make a clarification to the 
record. The RAMP program is not working. The RAMP program has 
not worked since day one. The one program that is absolutely 
not working at this time is the contract-guard program--the 
certifications of contract guards. I would like that entered 
into the record.
    We had a fix that came out yesterday--seemed to improve the 
speed--some downloading speed; but, other than that, about 10 
to 1 on any real improvement of RAMP.
    Also, in regards to the Interagency Security Committee--the 
Interagency Security Committee is not codified. It is a group 
that makes recommendations and recommended standards of--the 
Interagency Security Committee has no teeth. That's my 
clarification for the record. I appreciate the time.
    Chairman Thompson. Well, I appreciate your clarification.
    Ms. Richardson raised a question of the RAMP program--
committee has already asked GAO to look at it in its next 
review of FSP. I think they have agreed, based on what Mr. 
Goldstein said to the committee today.
    So we will see what the facts present themselves on the 
RAMP program.
    But also, I would again like to thank you for your 
testimony. If, in fact, there is additional information that 
the committee will need--that you will get it back to us in 
writing as expeditiously as possible.
    There being no further questions, the committee stands 
adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Gary W. 
                                Schenkel
    Question 1a. FPS has increased inspections at high-risk facilities 
in metropolitan areas, but rural areas often do not get inspected.
    What are the major risks of not inspecting these facilities?
    Answer. Rural facilities are inspected. As is the case with all 
Federal facilities, it is necessary to test the countermeasures 
utilized at these facilities to ensure that they are designed and 
functioning appropriately to mitigate vulnerabilities to the identified 
credible threats. If the countermeasures in place at these facilities 
are not tested, then it is more likely that technical, operation, or 
design problems will not be readily identified. As a result, the 
ability to provide appropriate recommendations for repair or 
replacement and oversee the implementation of those remedial measures 
through to completion would be inhibited.
    Question 1b. What should FPS do to increase inspections in rural 
locations?
    Answer. The Federal Protective Service (FPS) has already instituted 
an increase in both post inspections and file audits, and works to 
ensure that all Federal facilities are safe and secure. This 
responsibility includes numerous aspects of physical security and 
protective countermeasures to protect Federal employees. FPS achieves 
this goal through a risk-based approach to conducting security 
assessments, offering emergency planning services, and providing 
physical security to these facilities. The increase in the frequency of 
post inspections and file audits properly assesses contract 
performance, facility risks, and countermeasure effectiveness.
    FPS has also increased the requirements of Directive 15.9.1.3, 
Contract Protective Security Force Performance Monitoring, for 
administrative audits of records from 10 percent of the files annually 
to 10 percent of the files monthly. This directive established 
organizational responsibilities for post, site, and administrative 
inspections by field representatives and annual contractor performance 
evaluations conducted by the FPS Contracting Officer's Technical 
Representatives (COTR). A 20 percent increase in these inspections took 
place across all facilities, including rural locations.
    Question 2a. It is the understanding of this committee that, in 
rural areas, tenant agencies sometimes conduct post inspections.
    How often does this happen?
    Answer. FPS personnel conduct post inspections in accordance with 
Directive 15.9.1.3, Contract Protective Security Force Performance 
Monitoring. This Directive requires the inspection of all posts and 
shifts twice a year, including evenings, weekends, and holidays, to 
ensure contractor compliance. There are further requirements that 
prescribe that all posts and all shifts at Level I and Level II 
facilities receive inspections twice a year, that at least two posts at 
Level III facilities receive inspections every 2 weeks, and that at 
least two posts at Level IV facilities receive inspections every week.
    At all of our facilities, tenants also have a high level of 
interaction on a daily basis with the security force personnel as they 
enter and exit their facilities. The tenants frequently provide 
feedback to FPS on the security force performance. At those locations 
where tenants have requested that FPS appoint an Agency Technical 
Representative (ATR) to assist the FPS COTR with limited on-site 
contract monitoring and administration, the ATR may conduct post 
inspections, but it is not required. As an employee of the tenant 
agency, an ATR may report to FPS anytime they observe problems 
associated with security posts on an as needed basis.
    Question 2b. Do you believe that FPS should rely on tenant 
representatives for this task?
    Answer. FPS does not and should not put the tenant agencies in the 
role of oversight support of the contract security force; however, as 
the daily ``users'' of the security force services in the facilities, 
the tenants are a legitimate source of information for FPS on how the 
security officers perform their designated functions.
    Question 3a. You found that RAMP is not fully operational and that 
it is not effective because it does not contain reliable information 
that is available on a real-time basis.
    Why is the information in RAMP unreliable?
    Answer. The information in the Risk Assessment and Management 
Program (RAMP) is reliable. RAMP is designed to provide real-time 
access to information that is constantly being modified and updated 
through an iterative process to ensure that the most up-to-date 
information is available. A challenge of this process is ensuring that 
the information is verified, and the method of verification will vary 
depending on the type of information. Accordingly, RAMP is functioning 
correctly by readily highlighting gaps in information that previously 
took extensive research to identify.
    Accordingly, the Federal Protective Service (FPS) is working to 
institute a process for making corrections to information that will 
benefit the General Services Administration, FPS, and tenant agencies. 
Since RAMP incorporates a wide range of information into a single 
system, as FPS identifies needed corrections, it is taking appropriate 
action to determine, verify, and load the correct information.
    Question 3b. In your opinion, should FPS continue to invest in RAMP 
or should it pursue another alternative?
    Answer. Yes, FPS should continue to invest in RAMP. The system is 
now being implemented and is ahead of schedule in developing and 
instituting its planned functionality. As discussed above, RAMP is 
doing one of the major tasks it was designed for--fusing information 
from multiple sources to identify inconsistencies so that they can be 
corrected. As such, RAMP is proving itself as a solid solution to 
support FPS operations well into the future.
    Before making the initial decision to invest in RAMP, FPS evaluated 
200 other risk assessment tools, methodologies, and programs and none 
of them were able to meet even 20 percent of the stated requirements. 
This led FPS to determine that the best option was to invest in 
building the RAMP system to meet all of FPS' requirements. In doing so, 
RAMP is the only tool available that adheres to FPS business processes, 
the baseline criteria for risk assessment methodologies in the National 
Infrastructure Protection Plan, and Interagency Security Committee 
standards.
    Question 4. If FPS were to Federalize guards at the highest-risk 
facilities, approximately how many new Federal positions would this 
likely create?
    Answer. At the Government Accountability Office's suggestion, the 
Federal Protective Service (FPS) has explored several possibilities 
from converting the entire contract guard force of nearly 15,000 
persons to Federal positions and numerous variations within that 
number. On average, conversion costs approximately 35-40 percent more, 
not including recruiting and hiring costs. FPS does not believe this 
would be an efficient use of resources. However, to be responsive, FPS 
estimates that to fully staff the high-risk facilities (level 3 and 
level 4) and replace contract guards with full-time Federal FPS 
employees, the following number of Federal positions would be created 
(the numbers below reflect a one-to-one replacement of contract guards 
with Federal positions:

   ESTIMATED FULL TIME EQUIVALENT (FTE) TO REPLACE PROTECTIVE SECURITY
               OFFICERS AT LEVEL 3 AND LEVEL 4 FACILITIES
------------------------------------------------------------------------
                                          Level 3    Level 4   High Risk
                                          Facility   Facility    Total
------------------------------------------------------------------------
Federal Security Officers..............      1,341      7,007      8,348
Supervisors and Management.............         76        397        473
Mission Support and Compliance.........        105        577        682
                                        --------------------------------
      Total Estimated FTE..............      1,522      7,981      9,503
------------------------------------------------------------------------

    Question 5. You found that in 53 penetration tests FPS performed 
since July 2009, guards failed to detect guns, knives, and fake bombs 
in 35 tests. What disciplinary action was taken against guards or their 
employers responsible for these failed penetration tests?
    Answer. A variety of actions were taken in regards to the 35 failed 
penetration tests and the application of remedies varied as well, 
ranging from whether or not there was evidence of a systematic 
performance problem to the feasibility and success of the contractor's 
submitted mitigation plans. The actions and remedies employed under 
these contracts included the revision of post orders in cases where 
inaccurate or ambiguous post orders may have contributed to the 
penetration; request and receipt of mitigation plans from the 
contractor by the Contracting Officer; documentation of inspection 
results in contractors' annual performance assessments; or in the most 
severe cases, the cancellation of a contract or an election not to 
exercise additional option periods.
 Questions From Honorable Charles W. Dent of Pennsylvania for Gary W. 
                                Schenkel
    Question 1a. One criticism of FPS is that it does not share 
training and certification information of previous contract guards when 
a contract is taken over by a new contractor.
    Does FPS currently have any mechanism by which it can share 
training and certification information when a contract is taken over by 
a new contractor?
    Answer. The Federal Protective Service (FPS) does not provide any 
training and certification information to new contractors. Protective 
Security Officers (PSOs) are employees of the contract security vendor. 
It is the contractor's responsibility to provide PSOs who meet the 
training, certification, and clearance requirements to work on the 
contract and maintain copies of the associated documentation. FPS does 
not maintain copies of the training and certification documents.
    FPS has recently updated its National Statement of Work (SOW) to be 
included in all new PSO contracts. The updated SOW will require any 
out-going incumbent contractor to provide a successor contractor with 
personnel records of existing PSOs--such records will include but are 
not limited to training, medical, suitability, and security records. 
These records must be provided to the successor at least 45 days prior 
to the date of contract expiration. The contracts will stipulate that 
any failure to provide all records to the successor contractor as 
required may result in FPS withholding final payment to the out-going 
contractor until completion of this action and may also negatively 
impact the out-going contractor's performance assessment.
    Question 1b. To what extent does FPS consider past contractor 
performance in awarding new contracts?
    Answer. FPS' standard practice and policy is to evaluate past 
performance in all source selections. This is generally the most 
important factor of all non-price evaluation factors. When evaluating 
past performance, FPS considers the relevance and quality of past 
projects performed and reviews project data and responses to the 
provided questionnaires. In addition, the Federal Acquisition 
Regulation provides that the Government may consider information from 
any other sources when evaluating past performance, and FPS does so. 
This may include a review of performance assessments maintained in the 
Past Performance Information Retrieval System, the Federal Government's 
repository of contractor performance information, first-hand knowledge 
of the Source Selection Official, and communications with anyone with 
information concerning the contractor's past performance.
  Question From Honorable Charles W. Dent of Pennsylvania for Mark L. 
                               Goldstein
    Question. What specific factors would you like FPS to consider when 
undertaking this reassessment?
    Answer. Overall, we think it is important for FPS to consider other 
alternatives to protecting Federal facilities. For example, FPS could 
consider Federalizing the entire contract security guard workforce or 
guard posts at key Federal facilities.
    Specifically, we think that FPS should consider the following 
factors when undertaking this reassessment:
  <bullet> Risk management--A comparative analysis of risk across GSA's 
        entire Federal facility portfolio, which FPS could use to guide 
        resource allocation decisions.
  <bullet> Cost--An understanding of the comparative costs of each 
        alternative.
  <bullet> Coordination--Outlining the steps needed to clarify roles 
        and responsibilities and information-sharing mechanisms to 
        ensure full Federal agency coordination.
  <bullet> Guard capability & training--Evaluation of the guard 
        capabilities needed and training requirements for each option.
  <bullet> Guard supervision--Consideration of the types of guard 
        supervision models needed to ensure effective oversight of 
        contract security guards.
  <bullet> Technology--Identification of other technologies to 
        supplement and enhance contract guard workforce.
Questions From Honorable Charles W. Dent of Pennsylvania for Clark Kent 
                                 Ervin
    Question 1a. Media reports last year criticized the TSA for having 
testing requirements that were too difficult, particularly when it came 
to identifying IED components in X-ray machines. Too many screeners 
were failing on their first test, though the vast majority ultimately 
passed. Some groups criticized TSA's testing processes as being overly 
burdensome.
    What are your thoughts on TSA's statutorily required annual testing 
process for its transportation security officers?
    Answer. Response was not received at the time of publication.
    Question 1b. Is it too difficult?
    Answer. Response was not received at the time of publication.
    Question 1c. Should we consider extending it to FPS employees?
    Answer. Response was not received at the time of publication.
    Question 2. Some critics claim that FPS awards contracts to the 
lowest bidders and fail to reflect past contractor performance or 
higher wages and training some contract guard companies provide for 
their employees, thus making their bids much higher.
    In your experience as Inspector General, did you find that FPS 
awarded contracts solely based on the lowest bidder?
    Answer. Response was not received at the time of publication.
 Questions From Honorable Charles W. Dent of Pennsylvania for David L. 
                                 Wright
    Question 1a. In your testimony in November you recommend that FPS 
begin Federalizing contract guards at level IV facilities. In your 
testimony today you recommend that FPS also Federalize some Level III 
facilities.
    In your view, what is the major benefit in having a Federalized 
guard staff at Level III and IV facilities?
    Answer. Federal Police Officers have a predictable cost, 
standardized training, can be easily adapted to changing standards, can 
be held individually accountable by their supervisors, and are clearly 
mission-focused. This method has been chosen rather than contractors 
for the White House, Congress, and DOD Installations because it works 
and provides the best predictable level of protection.
    Contract guards have constantly escalating costs, recent Service 
Contract Act wage adjustments have been as high as 20% in Washington, 
DC and other areas. Training is conducted by the company and has not 
been equal even among different branches of the same company (there 
have been cases of fraudulent certification). Adaptation to emerging 
threats requires contract modification, negotiation of ``equitable 
adjustments'' to pay the contractor for his differences, disciplinary 
requirements differ greatly between companies and they fear liability 
for wrongful termination, and most contract guards do not see the field 
as a career, resulting in excessive turnover.
    With Federal Police Officers, the overall major benefit is improved 
protection and a much stronger likelihood that an attack will be 
deterred or detected before major loss of life or property.
    Question 1b. Why not have Federalized guards at Level I and II 
buildings?
    Answer. Local 918 believes that ultimately all guards should be 
Federalized. For example on Capitol Hill even the parking garage (non-
Capitol Police) security are Federal. When one of our members asked one 
of these security staff if they were contractors, he replied ``of 
course not security at any Congressional facility is too important to 
trust to a contractor''. Eventually security at these lower-risk 
buildings should be considered for conversion, our position is to 
convert at the higher-risk facilities first.
    Question 2. In your testimony you cite the need for Congress to 
provide a different approach to the funding of FPS. You claim that the 
present system of funding by security fees is ineffective and 
counterproductive.
    In what way would a direct appropriation improve FPS operations and 
thus improve security in Federal buildings?
    Answer. Currently, each Federal Agency must pay out of their 
appropriation, FPS Basic Security Charges, FPS Building Specific 
Security Charges and FPS Security Work Authorizations. FPS Basic 
Security Charges represent law enforcement and security services 
provided to all GSA Buildings.
    The current arrangement would be similar to requiring the Allentown 
Fire Department, Public Works Department, Water Department, and Solid 
Waste Department each being required to pay the Police Department for 
law enforcement/security services. Under this scenario the Police 
Department would have to collect the charges, while the other 
departments would be forced to pay the charge out of their operating 
funds. It would clearly undermine the ability of the Police Department 
to complete its support mission to these other departments and be very 
inefficient. It surely wouldn't make sense in Allentown and it doesn't 
make sense in the Federal Government either. In fact one of the major 
reasons for creating a DHS was to have a central point responsible for 
security--the current system undermines the very purpose of the 
Department.
    FPS Operations would be improved because we could request specific 
resources matched to required security needs. This would prioritize law 
enforcement and security services to match criminal and terrorist 
threats, as opposed to a standard ``charge'' across all agencies. The 
security required to mitigate the risk of attack for each facility 
would be provided in one appropriation and the Department and FPS would 
be accountable to Congress, our supported tenant agencies and the 
public for protecting Federal buildings. Providing adequate funding 
based on specific requirements and priorities, rather than a intra-
government funding scheme seemingly designed to diffuse responsibility 
and accountability, would provide clearer visibility of protection 
needs and shortfalls. This would be a clear path to properly protecting 
Federal facilities.
    At a minimum, the actual operating costs for basic law enforcement 
should be appropriated followed by building specific security required 
by minimum ISC standards would enhance the protection of both Federal 
employees and buildings by providing these services on the same basis 
they are provided at all levels of government.
Questions From Honorable Charles W. Dent of Pennsylvania for Stephen D. 
                                 Amitay
    Question 1. With regard to FPS contracts oversight and management, 
in your testimony you testify that quality should always play a primary 
role when selecting a private security company. You also cite tangible 
reasons why higher-quality security costs more money.
    In your experience, does FPS accurately assess the quality of 
contract guard security by considering past performance or does FPS 
award contracts solely based on cost in awarding of contracts?
    Answer. A typical FPS contract for guard service is awarded for a 
base period (or year) with four option periods (years). It therefore 
takes at least 5 years to cycle through a contract and if a poor 
performer is chosen on price, it is difficult to terminate that 
contract. However, it has recently been done here in the Washington 
Region (Region 11) on more than one occasion. The FPS procurement 
policy is evolving and they have made significant strides toward moving 
away from cost as the primary reason for award. However, as there may 
have been more importance put on price on contracts awarded in the 
recent past and some of those contractors may still hold their 
contracts. There is also the issue of regionalization. Not all FPS 
regions pursue quality with the same vigor and some may give more 
credence to cost (in comparison to quality) than others.
    Question 2a. In your previous testimony you cited significant 
reductions in the FPS inspector and law enforcement officer force 
having exacerbated problems at FPS.
    Given shortages in FPS staffing that remain uncorrected, going 
forward, do you believe FPS has the resources it needs to make strides 
to rectify the contract guard program?
    Question 2b. If not, what increase in resources would you 
recommend?
    Answer. With its current level of resources, FPS can take various 
actions and implement improvements to rectify problems of the contract 
guard program. Improvements can be made through better and more 
consistent training, better oversight and contractor management, full 
utilization of RAMP, better communication with contractors and in other 
ways that do not necessarily require increased resources to undertake. 
Additionally, taking more effective action in cases of underperforming 
contractors and completing required performance evaluations are ways to 
improve that are not dependent upon having more resources. However, it 
does seem that if more resources were available and could be used to 
hire more COTRS and inspectors, who are vital to procurement, 
oversight, and management of the contract guard program, that would 
lead to improvement. More resources could also provide for more awards 
(and higher contracts) to companies that can and will provide better-
trained, -paid, and -qualified officers.

                                 <all>

</pre></body></html>
